    U N I T E D      S T A T E S 


National Science Foundation





       FY 2008 AnnuAl FinAnciAl RepoRt





                  Advancing Discovery, Innovation, & Education

                             THE NSF STATUTORY MISSION

To promote the progress of science; to advance the national health, prosperity,
          and welfare; and to secure the national defense (NSF Act of 1950)




                                          THE NSF VISION


Advancing discovery, innovation and education beyond the frontiers of current
  knowledge, and empowering future generations in science and engineering.




About the cover:
An NSF-supported University of Washington-led team has taken a sample of mud collected at Lake
Washington and successfully sequenced a complete genome for an unknown microorganism. Their method
provides a way to discover new microscopic life in complex communities. Using the genetic technique of
metagenomics, University of Washington researchers have revealed the possibility to uncover the genomes of
unknown species with this approach. This is a particularly important finding for microbial research since few
microbes survive in the lab and have therefore gone largely unidentified. Such techniques could allow scientists
and engineers to identify microbial species based on particular, desired functions and to develop such
microbes for practical applications.

Shown on the cover are microorganisms from a mud sample collected in Lake Washington. For more
information see www.nsf.gov/news/news_summ.jsp?cntn_id=112138&org=NSF&from=news.

Credit: Photo by Dennis Kunkel (Dennis Kunkel Microscopy, Inc.); color by E. Letypova (University of Washington)



                                                        i
                                   NATIONAL SCIENCE FOUNDATION
                                     FY 2008 Annual Financial Report
                                           www.nsf.gov/publications/pub_summ.jsp?ods_key=nsf0902



NSF Mission and Vision Statement/About the Cover .................................................................................i

Table of Contents.......................................................................................................................................... ii

A Message from the Director.......................................................................................................................iv

I. Management’s Discussion and Analysis
       About this Report ........................................................................................................................... I-1
       Agency Overview........................................................................................................................... I-1
           Mission and Vision
           Organizational Structure
           President’s Management Agenda
           Management Challenges
           Meeting Future Opportunities and Challenges
       Performance Highlights.................................................................................................................. I-7
           FY 2008 Results
           Assessing the Outcomes of Long-Term Research
           Research and Education Highlights
       Management Assurances.............................................................................................................. I-11
       Financial Discussion and Analysis............................................................................................... I-13
           Understanding the Financial Statements
           Limitations of the Financial Statements
           Budgetary Integrity: NSF Resources and How They Are Used
           Financial System Strategy
           Key Financial Metrics
           Future Business Trends and Events

II. Financials
         A Message from the Chief Financial Officer ................................................................................II-1
         Independent Auditor’s Report and Management’s Response ......................................................II-3
         Financial Statements and Notes
             Principal Financial Statements.............................................................................................II-12
             Notes to the Principal Financial Statements ........................................................................II-19
             Required Supplementary Stewardship Information
                    Stewardship Investments...........................................................................................II-36
             Required Supplementary Information
                    Deferred Maintenance ...............................................................................................II-39
                    Budgetary Resources by Major Budgetary Accounts................................................II-41
             Other Financial Reporting Information
                    Debt Collection Improvement Act of 1996 ...............................................................II-46
                    Cash Management Improvement Act .......................................................................II-46




                                                                             ii
III. Appendix
        1 Summary of NSF FY 2008 Financial Statement Audit and
          Management Assurances
            A. Table 1. Summary of Financial Statement Audit ........................................................... III-1
            B. Table 2. Summary of Management Assurances ............................................................. III-1
        2 Improper Payments Information Act (IPIA) Reporting ......................................................... III-2
        3 Management Challenges
            A. Inspector General’s Memorandum on FY 2009
                   Management Challenges ........................................................................................... III-3
            B. Director’s Response to IG’s Memorandum on FY 2009 Management Challenges
                   and NSF FY 2008 Management Challenges Report................................................ III-11
        4 Patents and Inventions Resulting from NSF Support............................................................ III-17
        5 Acronyms .............................................................................................................................. III-18




               For more information about the National Science Foundation, visit NSF’s website at www.nsf.gov.

                            For copies of this report please send your request to Accountability@nsf.gov.

 We welcome suggestions on how to make this report more informative. Please provide your comments to Shirley Watt,
                           4201 Wilson Blvd., Arlington, VA 22230 (smwatt@nsf.gov).




                                                                          iii
A MESSAGE FROM THE DIRECTOR 




I am pleased to share with you the Annual Financial Report (AFR) of the National Science
Foundation (NSF) for Fiscal Year (FY) 2008. This report focuses on the agency’s financial
management, the results of the agency’s financial audit, and compliance with the Federal
Managers’ Financial Integrity Act (FMFIA) and the Federal Financial Management Improvement
Act (FFMIA).

NSF is the only federal agency dedicated to the support of fundamental research across all fields of
science and engineering and all levels of science and engineering education. NSF funds the best
ideas and most promising people, searching out the frontiers of science and engineering to foster
high-risk, potentially transformative research that will generate important discoveries and new
technology. An example of the outstanding research supported by NSF is the work reported this
year by investigators at the University of Michigan. Professor Victor Li and his team have
developed a new type of concrete that maintains all the advantages of current concrete but can be
bent without fracturing when overloaded. It also exhibits self-healing properties that enhance its
durability. NSF’s Advisory Committee for Government Performance and Results Act (GPRA)
Performance Assessment commented in their report that this work “may establish the United States
as the global leader in ‘designer’ cement-based composites … and has potential consequences in
the design of sustainable structures resistant to earthquakes and weather events.” In FY 2008, NSF
received nearly 45,000 proposals and made 11,484 new awards to almost 1,900 colleges,
universities, and other public and private institutions throughout the country.

It is NSF’s commitment to efficient and effective management practices and sound financial
oversight that allows the Foundation to pursue critical investments in science and engineering
research and education like the work of Professor Li. Ultimately, NSF’s investments in basic
research and education help ensure the nation remains globally competitive, prosperous, and
secure. Two notable NSF management accomplishments in FY 2008 are the annual financial audit
and the full implementation of NSF’s new internal control program. NSF received its eleventh
consecutive unqualified (“clean”) audit opinion from an independent audit of its financial
statements. No material weaknesses or significant deficiencies were identified and all prior year
significant deficiencies were closed. As discussed in more detail in the report’s management
assurance discussion, based on a review of entity-level controls, NSF is able to provide reasonable
assurance that the agency is in substantial compliance with FMFIA and FFMIA, and that internal
control over financial reporting is operating effectively to produce reliable financial reporting. I
invite you to peruse the report for information about additional NSF management
accomplishments.




                                                 iv
For a second year, NSF is participating in OMB’s Pilot Program for Alternative Approaches to
Performance and Accountability Reporting. The Annual Financial Report is the first part of this
activity. In January 2009, NSF will provide an Annual Performance Report which will include a
comprehensive discussion of the Foundation’s FY 2008 GPRA performance results. In addition,
NSF will prepare a Budget, Financial, and Performance Snapshot and a Citizens’ Report. The
Citizens’ Report—previously the Performance Highlights report—is a summary report of NSF’s
key performance and financial information. The Snapshot will be available in December; the
Citizens’ Report will be available in January 2009. All reports will be accessible on NSF’s website
at www.nsf.gov/about/performance.




                              Arden L. Bement, Jr.
                                   Director



November 14, 2008




                                                v
   CHAPTER I: MANAGEMENT’S DISCUSSION AND ANALYSIS 


                                               About This Report
For a second year, the National Science Foundation (NSF) is participating in the Office of Management and Budget
(OMB) Pilot Program for Alternative Approaches to Performance and Accountability Reporting. The pilot is an
alternative to the consolidated Performance and Accountability Report (PAR) prepared in previous years. NSF
believes this approach will improve performance reporting by presenting information in a more focused and
accessible format. As part of this project, NSF is producing four annual reports for FY 2008, pursuant to OMB
Circular A-136, Financial Reporting Requirements. All four reports will be available on NSF’s website at
www.nsf.gov/about/performance.

       This report, the Annual Financial Report (AFR), focuses on NSF’s financial management, the results of
        the agency’s annual financial audit, and its compliance with the Federal Managers’ Financial Integrity Act
        (FMFIA) and the Federal Financial Management Improvement Act (FFMIA).

       The Budget, Financial, and Performance Snapshot is a new report that will provide the reader with a
        quick picture of the agency’s mission, organization, performance, and financial results. OMB will compile the
        agency reports into a government-wide Performance Results Report. The Snapshot will be available
        December 15, 2008.

       The Annual Performance Report (APR) will present the results of NSF’s FY 2008 Government
        Performance Results Act (GPRA) goals and a comprehensive discussion of NSF’s performance
        assessment process. The APR will be available January 15, 2009. NSF’s performance website will include
        additional, more detailed performance information.

       NSF’s Citizens’ Report, previously known as NSF’s Performance Highlights report, summarizes key
        performance and financial information. It will be available January 15, 2009.



                                         AGENCY OVERVIEW 


Mission and Vision	                                                         Figure 1.
The National Science Foundation (NSF) was                NSF Support as a Percent of Total Federal

established in 1950 to promote and advance the             Support of Academic Basic Research in

progress of science and engineering in the United                          Selected Fields

States. With a budget of about $6 billion, NSF
supports research across all fields of fundamental    Physical Sciences                   41%
science and engineering and all levels of science           Engineering                   41%
and engineering education. NSF funds the best
ideas and most promising people, searching out Environmental Sciences                         49%

the frontiers of science and engineering to foster     Social Sciences                         52%

high-risk, potentially transformative research that       Mathematics                              60%
will generate important discoveries, new               Biology (ex. NIH)                              67%
technologies, and a dynamic workforce. This          Computer Science                                            86%
catalytic role is captured in NSF’s vision
statement: Advancing discovery, innovation and                           0     20      40        60      80            100
education beyond the frontiers of current
knowledge, and empowering future generations in science and engineering.

Although NSF’s annual budget represents less than 4 percent of the total federal budget for research and
development, NSF provides nearly half of the federal support for non-medical basic research at America’s
colleges and universities. As shown in Figure 1, in many fields, NSF is the principal source of federal



                                                        I-1 

                                                                         Management’s Discussion and Analysis
academic support.1 NSF supports research and education through a competitive, merit-based review
process that is recognized throughout government as the exemplar for effective and efficient use of public
funds. Ninety percent of NSF funding is allocated through this merit-based, competitive process.2 In FY
2008, NSF received over 44,000 grant proposals and made 11,162 new awards, mostly to individual
investigators or small groups of investigators at nearly 1,900 colleges, universities, and other public and
private institutions throughout the United States. These awards directly involved an estimated 197,000
people, including researchers, teachers, and students from kindergarten through graduate school.

           HOW NSF’S INVESTMENTS IN BASIC RESEARCH AND EDUCATION BENEFIT SOCIETY
             NSF’s investments produce both tangible and intangible benefits that keep the United States
                                    at the forefront of science and engineering.

      New Knowledge such as Quantum Computing, Nanotechnology, Computer Visualization Techniques,
      Metagenomics, Science of Science and Innovation Policy, and Plant Genome Mapping.
      NSF’s support for basic research is at the core of its mission of advancing the frontier of science and
      engineering. The quality of these investments is reflected in the fact that since its inception NSF has
      supported 180 Nobel laureates for their seminal work. This broad and long-standing commitment sustains
      the nation’s ability to generate and harness advances in science and technology.
      World Class Facilities such as the National Center for Atmospheric Research, the U.S. South Pole Station,
      and the Large Interferometer Gravitational-Wave Observatory.
      State-of-the-art facilities provide unique capabilities at the cutting edge of science and engineering that are
      necessary to expand the boundaries of technology and offer significant new research opportunities, often in
      totally new directions. NSF’s polar research facilities, for example, provide access to the Earth’s most
      extreme environments and advance discovery in fields as diverse as climate change, astronomy, geology,
      and biology.
      New Tools, Methods, and Processes such as the Internet, DNA Fingerprinting, Magnetic Resonance
      Imaging, and Novel Materials.
      The basic research supported by NSF is a proving ground for tools, methods, and processes that drive
      discovery and technology development. For example, fundamental work supported by NSF to create
      “libraries” of chemical compounds has since become a staple for drug design in the pharmaceutical
      industry.
      Insight into National and Global Challenges such as Green Gasoline, Climate Change, Environmental
      Protection, Cybersecurity, and Homeland Security.
      The fundamental knowledge generated by NSF’s investments has time and again proved vital in addressing
      national and global challenges. NSF-supported work on ocean/atmosphere dynamics, for example, has led
      to more accurate and useful predictions of the weather cycles known as El Niño and La Niña.
      A Highly Trained Workforce such as Graduate Research Fellowships, Advanced Technological Education,
      and Louis Stokes Alliances for Minority Participation.
      By supporting science, technology, engineering, and mathematics (STEM) education at all levels, NSF is
      working to build a highly trained future workforce that will help the United States maintain its world-class
      status in science and engineering. NSF directly supports the advanced education of over 40,000 graduate
      and postdoctoral students in science and engineering.
      Resources for Teachers and Students such as Graduate Teaching Fellows in K-12 Education, Math and
      Science Partnership Program, and Curriculum and Laboratory Improvement Programs.
      NSF supports more effective approaches to teaching science, mathematics, and engineering. Research on
      how students learn provides the knowledge to train highly qualified teachers, develop effective curricular
      materials, and improve student learning. In FY 2008, for example, over 60,000 K–12 teachers were directly
      engaged in NSF-supported activities that provide intensive professional development activities in science
      and mathematics.




1
 Source: NSF/SRS/R&D Statistics Program, Survey of Federal Funds for R&D, FY 2005-2008.

2
 For more information about NSF’s merit review process, see Report to National Science Board on the NSF’s Merit 

Review Process, FY 2007 at www.nsf.gov/publications/pub_summ.jsp?ods_key=nsb0847 .


                                                         I-2 

                                                                                                Management’s Discussion and Analysis

Organizational Structure
NSF is an independent federal agency headed by a Director and Deputy Director who are appointed by
the President and confirmed by the Senate. A 24-member National Science Board, also appointed by the
President with the consent of the
Senate, meets about six times a year                                              Figure 2.
to establish the overall policies of
the Foundation.3 The Director is a                 National Science Foundation Organization
member ex officio of the Board. The         Office of the Director                  NSF Director
                                                                                                                            National Science Board
                                                                                                                                         Chair
                                                                                 ----------------------------
NSF workforce includes over 1,300           and Staff Offices
                                                                                  Deputy Director
                                                                                                                               ----------------------------
                                                                                                                                     Vice Chair
full-time staff. NSF regularly
                                                                                                                              Office of Inspector
recruits       visiting     scientists,                                                                                                General
engineers, and educators who are
                                                                    Directorate for                         Directorate for Social, Behavioral,
leaders in their fields. Recruiting                            Biological Sciences                          and Economic Sciences
active researchers and educators to
                                                       Directorate for Computer &                           Office of
fill rotating assignments infuses new         Information Science & Engineering                             Cyberinfrastructure
talent and expertise into NSF and is
integral to NSF’s mission of                             Directorate for Education                          Office of International Science
                                                                                                            and Engineering
                                                            and Human Resources
supporting the entire spectrum of
science and engineering research                                    Directorate for                         Office of
                                                                       Engineering                          Polar Programs
and education, particularly research
                  4
at the frontier. In addition to the                                 Directorate for                         Office of Budget, Finance, and
agency’s headquarters located in                                      Geosciences                           Award Management

Arlington, Virginia, NSF maintains               Directorate for Mathematical and                           Office of Information
offices in Paris, Tokyo, and Beijing                             Physical Science                           and Resource Management

to facilitate its international
activities.

President’s Management Agenda
The President’s Management Agenda (PMA) is a government-wide effort to improve the management,
performance, and accountability of federal agencies. The PMA initiatives remain a high agency priority as
management implements them to yield the best overall benefits for the agency (Figure 3).5 In FY 2008,
the ratings dropped for the Strategic Management of Human Capital and Performance Improvement
initiatives, as NSF was not able to meet all the deliverables for each initiative.

X NSF’s efforts in the area of Strategic Management of Human Capital during FY 2008 were focused on
the alignment of the Foundation’s workforce with its business processes; the agency’s ability to attract,
develop and retain a diverse, world-class workforce; and the transformation of the human resources (HR)
service model at the Foundation. These efforts were undertaken in pursuit of the goals set forth in the
NSF Strategic Plan and articulated in the NSF Human Capital Strategic Plan. In December 2005, NSF
completed an in-depth study of the administrative work performed at the Foundation, which resulted in
recommendations to redesign administrative positions in NSF’s program directorates and to better align
the new positions with the Foundation’s business processes. The findings from this study were tested in a
year-long pilot during FY 2008. NSF is improving its ability to attract, develop, and retain a diverse,
world-class workforce through initiatives such as a new executive transition program, a revamped new
employee welcome process, a childcare subsidy program, and enhanced advertising and outreach efforts.
NSF has also transformed its HR service model to form strategic business partnerships between HR and

3
  For more information about the National Science Board, see www.nsf.gov/nsb. 

4
  As of September 2008, temporary appointments included 149 under the Intergovernmental Personnel Act.

5
  For more information about the President’s Management Agenda, see www.Results.gov.


                                                                           I-3 

                                                                    Management’s Discussion and Analysis
its internal customer organizations. These partnerships have resulted in dramatic improvements in
agency-wide workforce planning efforts as well as improved accuracy and timeliness of all HR services.

X NSF has no projected or actual savings from completed competitions. However, an independent
validation confirms that competition for post-award monitoring for grant, contract, and cooperative
agreement activities has resulted in significantly improved performance and the first financial statement
audit report since FY 2001 with no negative findings on post-award monitoring practices.

X NSF continues to use an integrated strategy in its Financial Performance and Performance
Improvement initiatives. During FY 2008, the Foundation refined its performance data to include
milestones and measures to monitor stewardship project results. By integrating financial and budgetary
information,     management     can    gain
additional insight into current stewardship                           Figure 3.
and other projects and improve planning for         President's Management Agenda Scorecard
future projects.                                                       Status      Status     Progress
                                                                           9/30/07            9/30/08
X NSF is a federal leader in the use of
                                                 Strategic Management                                    G
information technology, actively promoting                                  Y              R
                                                 of Human Capital
simpler, faster, more accurate, and less
expensive electronic business solutions. The Commercial Services            R              R             R
agency is actively engaged in supporting Management
numerous E-Gov and Line of Business
initiatives,    including     the     Grants Improving Financial            G              G             G
                                               Performance
Management Line of Business (GMLoB)
through Research.gov, a partnership of Expanded E-                          G              G             G
federal research-oriented grant-making Government
agencies led by NSF that is working to
enhance      customer     service    through Performance
                                               Improvement
                                                                            G              Y             G
streamlining and standardizing processes
                                               Notes:
among partners. Research.gov leverages the Eliminating Improper Payments Initiative: OMB has moved NSF from
capabilities of FastLane—NSF’s own web- an annual to a three-year reporting cycle as a result of reporting low
based system used by NSF customers to i mproper payments.
electronically conduct business with the Green (G) indicates success; Yellow (Y), mixed results; and Red (R),
agency—to deliver a single web portal for unsatisfactory. Rati ngs are issued quarterly by OMB.
research institutions to find relevant information and conduct grants business with federal research
agencies. In addition to providing electronic business solutions, the security of information technology
systems remains a high management priority. During FY 2008, NSF focused on protection of privacy
information, removing over 350,000 social security numbers from agency systems and encrypting mobile
devices.
X As part of the Performance Improvement initiative, NSF has actively implemented Executive Order
13450 on Improving Government Performance by appointing a Performance Improvement Officer to
focus on agency performance and efficiency goals and improvement plans. NSF’s senior management
meets regularly to coordinate Foundation-wide efforts to promote continuous improvement in all aspects
of supporting excellence in science and engineering research and education. Significant improvements
were made in the process by which the Advisory Committee for GPRA Performance Assessment
conducts an annual evaluation of performance results under the Foundation’s strategic outcome goals.


Management Challenges
The Office of Inspector General’s (OIG) annual statement of management challenges for FY 2008
covered six broad areas: Award and Contract Administration; Human Capital; Budget, Cost and

                                                     I-4 

                                                                                Management’s Discussion and Analysis

Performance Integration; U.S. Antarctic Program; and Merit Review. Many of the management
challenges noted are fundamental issues that the agency is dealing with on a continuing basis. The
following chart presents several key management challenges and significant agency actions taken in the
past year and anticipated actions to be taken in the near term. Appendix 3a of this report is the OIG’s
statement of management challenges for FY 2009 and Appendix 3b is the Director’s response which
includes a report of the significant actions taken in the past year by management with respect to each of
the OIG’s FY 2008 management challenges.

                                                         Figure 4.

                         Office of Inspector General FY 2008 Management Challenges


 OIG’s FY 2008 Management        NSF’s Significant Actions Taken in FY 2008               NSF’s Anticipated Next Steps
         Challenge

Post-Award Administration      Assessed administrative performance of 29% of        Continue to develop new administrative
Policies                       awardees managing 93% of NSF funds through           tools to strengthen post award oversight.
                               advanced monitoring (30 site visits; 138 desk
                               reviews) under the Award Monitoring and              Incorporate additional business rules into
                               Business Assistance Program (AMBAP).                 NSF corporate business systems to further
                                                                                    strengthen accountability.
                               Updated policies and procedures, including NSF’s
                               suite of grant administrative manuals, and the       Implement policies and procedures to
                               Standing Operating Guidance that outlines            address new programmatic requirements
                               AMBAP procedures for ensuring grantee                legislated under the America COMPETES
                               compliance in administering NSF funds.               Act (ACA).

                               Fully implemented Portfolio Facilitation Model       Develop strategies and resources for
                               providing comprehensive support for NSF grant        training NSF staff on federal and agency
                               administration.                                      policies, regulations, and procedures.

                               Initiated implementation of “Division Director-
                               concur” for awards in eJacket as the last step in
                               establishing a paperless awards process.


Contract Monitoring            Expanded the contract oversight program to           Continue administration of the contract
                               include comprehensive post-award monitoring          post-award monitoring program.
                               policies and procedures and training.


U.S. Antarctic Program         Commenced verification and validation of PP&E        Complete the assessment of cost
Property, Plant, and           activities.                                          documentation for Construction-in-Progress
Equipment (PP&E)                                                                    and Real Property assets;
                               Implemented new methodology for freight cost
                               estimation.                                          Determine how best to expand the scope of
                                                                                    financial management modernization effort.


Reporting Results of           Implemented data migration for Project Reporting     Develop additional flexibility to report on
Scientific Research            System enhancements.                                 special award categories.

                               Finalized agency recommendations on final
                               project reporting requirements mandated by the
                               ACA.




Meeting Future Opportunities and Challenges
NSF continually strives to be a dynamic and agile organization that employs a range of programmatic and
organizational mechanisms and strategies to fulfill its mission and goals. NSF is now pursuing



                                                             I-5 

                                                                    Management’s Discussion and Analysis
fundamental changes in a number of areas in order to stay focused on the frontiers of science and
engineering.

Support for Potentially Transformative Research (PRT): Both the National Science Board and the
Congress have recently underscored NSF’s vital role in supporting transformative research.
Transformative research involves ideas, discoveries, or tools that radically change our understanding of
an important existing scientific or engineering concept or educational practice or leads to the creation of a
new paradigm or field of science, engineering, or education. NSF is now establishing new funding
mechanisms and providing additional guidance for the merit review process to enhance its ability to
identify and support research that is potentially transformative.

Investing in Technology to Support Program Oversight and Management: To ensure that critical,
program-related information technology systems and solutions are appropriately acquired, developed, and
maintained, NSF is undertaking efforts to make certain these investments meet current as well as future
agency information, reporting, and accountability requirements. This approach gives staff who are the
customers a stronger incentive to drive the requirements for IT systems, consistent with the best practices
in industry and other federal agencies.

Addressing Decreased Funding Rate: The competition for NSF funds has always been intense, and it has
grown more so in recent years. Since 2000, NSF’s overall funding rate for research proposals decreased
from 30 percent to 21 percent. To address this challenge, NSF is pursuing a variety of approaches that
balance trade-offs between keeping the proposal workload at a productive and manageable level—for
both NSF and the applicant community—and encouraging the free flow of ideas to NSF.




                                                     I-6 

                                                                               Management’s Discussion and Analysis


                                       PERFORMANCE HIGHLIGHTS 

NSF’s leadership in advancing the frontiers of science and engineering research and education is
demonstrated, in part, through internal and external performance assessments. The results of this process
provide stakeholders and taxpayers with vital information about the return on their investments. In FY
2008, performance assessment at NSF was guided by the Government Performance and Results Act of
1993 (GPRA) and by NSF’s FY 2006–2011 Strategic Plan.6 To accomplish its mission to promote the
progress of science and engineering, NSF invests in the best ideas generated by scientists, engineers, and
educators working at the frontier of knowledge and across all fields of research and education. NSF’s FY
2006–2011 Strategic Plan establishes four overarching strategic outcome goals by which NSF measures
its annual performance: Discovery, Learning, Research Infrastructure, and Stewardship. The four
interrelated outcome goals establish an integrated strategy to deliver new knowledge at the frontiers, meet
vital national needs, and work to achieve the NSF vision. The first three goals focus on NSF’s long-term
investments in science and engineering research and education. Stewardship includes both qualitative and
quantitative performance measures that focus on improving the effectiveness and efficiency of the
agency's management practices.
                                                           Figure 5.




FY 2008 Results
The results of three strategic outcome goals—Discovery, Learning, and Research Infrastructure—are
shown in Figure 6. The results for the remaining goals under Stewardship will be reported in NSF’s FY
2008 Annual Performance Report (APR).7 In addition to a comprehensive discussion of each of NSF’s
performance goals, the APR will also include a discussion of NSF’s performance assessment process, use
of the R&D investment criteria, NSF’s extensive data verification and validation process, and trend data. 8


6
    NSF’s FY 2006–FY 2011 Strategic Plan is available at www.nsf.gov/pubs/2006/nsf0648/nsf0648.jsp. 

7
  NSF’s FY 2008 Annual Performance Report will be available January 15, 2009 at 

www.nsf.gov/about/performance. 

8
  NSF’s performance assessment website at www.nsf.gov/about/performance includes additional performance-

related information.



                                                              I-7 

                                                                              Management’s Discussion and Analysis


                                                       Figure 6.
                                     FY 2008 Strategic Outcome Goals and Results
                                             Performance Goal                                                     Results

                                                                                                         z         FY 2004
    DISCOVERY                                                                                            z         FY 2005
    Foster research that will advance the frontiers of knowledge, emphasizing areas of greatest z                  FY 2006
    opportunity and potential benefit, and establishing the nation as a global leader in fundamental and z         FY 2007
    transformational science and engineering.                                                            z         FY 2008

                                                                                                 z                 FY 2004
    LEARNING                                                                                     z                 FY 2005
    Cultivate a world-class, broadly inclusive science and engineering workforce, and expand the z                 FY 2006
    scientific literacy of all citizens.                                                         z                 FY 2007
                                                                                                 z                 FY 2008

                                                                                                     z             FY 2004
    RESEARCH INFRASTRUCTURE                                                                          z             FY 2005
    Build the nation’s research capability through critical investments in advanced instrumentation, z             FY 2006
    facilities, cyberinfrastructure, and experimental tools.                                         z             FY 2007
                                                                                                     z             FY 2008

    Note
    z Indicates successful achievement. Assessments by a committee of external experts determined that NSF demonstrated
    significant achievement of the goal and successfully met all performance objectives. The assessment process itself was
    validated by an independent external review.


In FY 2008, Discovery, Learning, and Research Infrastructure
accounted for 94 percent of NSF’s investment portfolio
(Figure 7).9 Outcomes under these goals are assessed annually                                      Figure 7.
by an external review panel, the Advisory Committee for                                   FY 2008 Budget Obligations
GPRA Performance Assessment (AC/GPA), composed of                                                $6.08 Billion*
experts in various disciplines and fields of science,
engineering, mathematics, and education. The Committee                               Disco very
                                                                                                                        Learning
determined that NSF had demonstrated significant                                      $ 3.29 B
                                                                                                                        $ 0..85 B
                                                                                       (54%)
achievement of the Discovery, Learning, and Research                                                                      (14%)

Infrastructure goals and met all performance objectives based
on a review of more than 1,200 outstanding accomplishments
compiled by NSF program officers, award abstracts,                                                                       Research
                                                                                                                      Infrastruct ure
investigator project reports, and Committees of Visitors (COV)                                                           $1.59 B
reports.10 Moreover, the process of assessment by the AC/GPA                             Stewardship                      (26%)
                                                                                           $ 0.36 B
committee was itself reviewed and validated by IBM Global                                    (6%)
Business Services, an independent management consulting
                                                                                        *Totals may not add due to rounding.
firm.

Assessing the Outcomes of Long-Term Research
GPRA requires federal agencies to develop a strategic plan, establish annual performance goals, and
report annually on the progress made toward achieving these goals. NSF’s mission is to fund long-term

9
  Base obligation of $6.08 billion plus Trust Funds ($49 million), H1-B Nonimmigrant Petitioner Receipts ($121 

million), and upward adjustments posted against expired authority in FY 2008 ($5 million) equals Direct 

Obligations Incurred as shown on the Statement of Budgetary Resources ($6.26 billion). 

10
   The FY 2008 AC/GPA report is available at www.nsf.gov/publications/pub_summ.jsp?ods_key=nsf08207. 



                                                             I-8 

                                                                          Management’s Discussion and Analysis

science and engineering research and education where outcomes and results can be unpredictable. Science
and engineering research projects can generate discoveries in an unrelated area, and it can take years to
recognize discoveries and their impact. Moreover, serendipitous results can be the most interesting and
most important. Assessing the impact of advances in science and engineering is inherently retrospective
and is best performed using the qualitative judgment of experts.
The value of expert review has been affirmed in two studies by the National Academies. In a 2001 report,
the Committee on Science, Engineering, and Public Policy (COSEPUP) stated, “Because we do not know
how to measure knowledge while it is being generated and when its practical use cannot be predicted, the
best we can do is ask experts in the field—a process called expert review—to evaluate research regularly
while it is in progress.” In a 2008 report, a COSEPUP committee states, “EPA and other agencies should
use expert-review panels to evaluate the investment efficiency of research programs.” COSEPUP adds that
“Investment efficiency is used …to indicate whether an agency is ‘doing the right research and doing it
well.’”11
As shown in Figure 5, NSF uses a multi-layer assessment approach, integrating quantitative metrics and
qualitative reviews. The use of external experts to review results and outcomes is a longstanding practice
in the academic community. NSF’s use of such panels as the Committees of Visitors (COVs) and
Advisory Committees pre-dates GPRA. On broader issues, NSF often uses external third parties such as
the National Academies for review. NSF also convenes external panels of experts for special studies.12 As
previously noted, the AC/GPA was formed by NSF to provide an annual review of the agency’s
accomplishment with respect to its GPRA strategic goals. In addition, all NSF programs have been
evaluated by OMB’s Program Assessment Rating Tool (PART). All received a rating of “Effective”
except one which was rated “Moderately Effective.”13

Research and Education Highlights
The following are examples of NSF-supported research results reported in FY 2008 that were used by the
AC/GPA in forming its assessment of the agency’s success. Additional results can be found at
www.nsf.gov/discoveries.
► Virtual Prototyping of Artificial Knees: Dr.
Benjamin Fregly (University of Florida) and his
team are addressing a growing need for the aging
American population. By one estimate, 40 million
Americans will be affected by osteoarthritis in the
year 2020. This project could lead to an entirely new
approach for designing knee replacements and Comparison of experimental (a) and simulated (b) wear regions for a
testing innovative designs using computer total knee replacement design after 5 million cycles of walking
                                                  performed in a knee simulator machine. Xs indicate locations of
software rather than physical simulator machines. maximum wear. Dotted lines in (a) indicate boundaries of experimental
This work is unique because of its ability to wear regions. Color bar in (b) indicates depth in millimeters of
predict long-term wear characteristics of knee simulated wear regions.
                                                  Credit: B.J. Fregly, University of Florida.
replacement designs in a matter of minutes or
hours using computer simulations. In terms of broader impacts, high school students from
underrepresented groups have been involved in the knee research, through the University of Florida

11
   Implementing the Government Performance and Results Act for Research: A Status Report is available at 

www.nap.edu/catalog.php?record_id=10106 and Evaluating Research Efficiency in the U.S. Environmental 

Protection Agency is available at www.nap.edu/catalog.php?record_id=12150. 

12
   A schedule of NSF’s program evaluations and a summary of the findings of the external evaluations completed in

FY 2008 will be available on NSF’s performance assessment website in January 2009. 

13
   PART results are available at www.expectmore.gov. 



                                                         I-9 

                                                                         Management’s Discussion and Analysis


Summer Science Training Program. In addition, an orthopedic implant company has already enlisted the
research team to participate in designing the next generation of knee replacements. Significant ethical and
safety issues implicit in this study are ripe for further examination.

                            ► New Radar Network Evaluated in National Weather Service
                            Experimental Warning Program: Given the increasing frequency of
                            tornadoes experienced today, new technologies to predict when and where
                            tornadoes and other weather disturbances such as floods and severe
                            thunderstorms will occur are of obvious importance. The NSF Engineering
                            Research Center for Collaborative Adaptive Sensing of the Atmosphere
                            (CASA), located at the University of Massachusetts at Amherst, has developed
  Damage from an EF1
                            a method of weather sensing that utilizes dense, low-cost radar networks that
  tornado. CASA graduate    can sense the lower atmosphere, an important area that is under-sampled by
  student Patrick Marsh     today’s technologies The finely grained observations of the lower atmosphere
  (University of Oklahoma)
  conducted a damage survey obtained by the CASA researchers allowed forecasters to see small
  to verify the EF1 tornado meteorological structures that are close to the ground, such as mini-wind
  identified in CASA data.  clusters that are embedded in larger storms. During the 2007 tornado season,
  Credit: CASA.
                            CASA transmitted real-time data from its first prototype network in Oklahoma
to National Weather Service forecasters for evaluation in the Experimental Warning Program.
Researchers continue to evaluate the Center’s data in the Experimental Warning Program during the 2008
tornado season. The research is transformative because it will introduce a new dimension to weather
forecasting and sensing, yielding capabilities that do not exist today.

► Bendable Concrete for Safe, Durable, and Sustainable
Infrastructure: Investigators at the University of Michigan have
designed a new type of concrete that maintains all the advantages
of current concrete but adds ductility, allowing it to bend under
stress without fracture. The new type of concrete has 300 to 500
times the tensile ductility of normal concrete; it can bend without
fracturing when overloaded. The material also exhibits self-healing
properties, which further enhances its durability. The work may
establish the United States as the global leader in "designer"
cement-based composites. It also embodies collaboration among
several sectors: government, industry, and academic partners. It              This image shows the unique properties of
has potential consequences for the design of sustainable structures           Engineered Cementitious Composites in both
                                                                              its high ductility and ability to self-heal after
resistant to earthquakes and weather events. This research also               fracture. Credit: Victor Li, University of
exemplifies NSF’s goal of integrating research with ethics and                Michigan Ann Arbor.
safety considerations.

                                       ►Project SEEDBed (Stimulating Enthusiasm, Exploration, and
                                       Discovery through Biotechnology Education): Project SEEDBed
                                       engages middle and high school students and teachers in summer
                                       academies at community colleges designed to increase knowledge,
                                       stimulate interest in biotechnology among students and teachers, and
                                       encourage students to pursue further study, possibly leading to careers as
                                       biotechnicians. Teachers are provided with “footlockers” with all of the
                                       equipment necessary to conduct new laboratory activities in their
Two SEEDBEd high school students       classrooms. Evaluation data indicate significant impact on both students
use micropipettes to move enzyme
digested DNA into an electrophoresis   and teachers.
gel. Credit: Cindy Barton, Tulsa
CommunityCollege.



                                                           I-10 

                                                                    Management’s Discussion and Analysis


                                   MANAGEMENT ASSURANCES 

The Federal Managers’ Financial Integrity Act of 1982 (FMFIA) requires agencies to establish internal
control and financial management systems that provide reasonable assurance that the integrity of federal
programs and operations are protected in accordance with guidance provided by the Office of
Management and Budget (OMB) Circular A-123, Management’s Responsibility for Internal Control. In
December 2004, OMB issued a revision to Circular A-123 which requires management to separately
assess and document internal controls over financial reporting, prepare a separate assurance on internal
controls over financial reporting, and identify material weaknesses and corrective actions.

In FY 2008, NSF fully implemented its agency-wide internal control program. Over the past three years,
NSF has documented and tested all nine of its key business processes and 56 subprocesses. Through the
establishment of the Accountability and Performance Integration Council (APIC) senior assessment team,
the associated APIC Internal Controls Working Group (ICWG), numerous Business Process Owners, and
the A-123 Team, NSF has developed a sustainable internal control program. Management has also
enhanced the risk assessment aspect of the internal control program by adding additional levels of review
which in turn has improved the methodology for determining the agency’s 3-year cycle testing schedule.

In FY 2008, NSF refined its review process of entity-level controls by incorporating an annual assessment
of the documented controls. NSF reviewed and evaluated significant entity-level control activities
currently in place to support compliance with FMFIA and other applicable laws and regulations,
including (but was not limited to) the NSF Act of 1950, as amended; Annual Appropriation Law;
Government Performance and Results Act of 1993; Clinger-Cohen Act of 1996; Federal Information
Security Management Act of 2002; Chief Financial Officers Act of 1990, as amended; Federal Financial
Management Improvement Act of 1996; Improper Payments Information Act of 2002; Single Audit Act
of 1984, as amended; and the Inspector General Act of 1978, as amended.

In the past year, in addition to conducting annual internal controls training for the ICWG and Business
Process Owners, the A-123 team also conducted training sessions for program directorates. This
facilitated the identification, documentation, and testing of the financial controls managed within the
program directorates. The A-123 team also engaged in extensive outreach efforts to communicate the
importance of agency internal controls and the agency’s key role in ensuring effective and efficient
operation of programmatic activities.

NSF conducted a review of its Financial Accounting System (FAS) in accordance with OMB Circular
A-127 and the Federal Financial Management Improvement Act (FFMIA). Based on the results of the
review we can provide reasonable assurance that our financial management systems substantially comply
with federal financial management systems requirements, applicable federal accounting standards, and the
U.S. Government Standard General Ledger (SGL) at the transaction level. Based on the reviews
conducted during the year, APIC and the Senior Management Round Table (SMaRT), with the
concurrence of the Chief Operating Officer/Deputy Director, recommended an unqualified statement of
assurance to the NSF Director for FY 2008. The recommendation noted that management found no
evidence of material weakness in either financial controls or entity-wide controls. The recommendation
also noted that NSF internal controls meet the provisions of FMFIA, as implemented by A-123, including
compliance with OMB Circular A-127, Financial Management Systems.

In the FY 2008 Independent Auditor’s Report, NSF received an unqualified opinion of our financial
statements, with no material weaknesses.14

14
     See Appendix 1, page III-1, for the Summary of Financial Statement and Management Assurances tables.


                                                        I-11 

                                                            Management’s Discussion and Analysis



                   NSF FY 2008 Federal Managers’ Financial Integrity Act
                                      Assurance Statement

 The National Science Foundation (NSF) is responsible for establishing and maintaining effective
 internal control and financial management systems that meet the objectives of the Federal
 Managers’ Financial Integrity Act (FMFIA). These objectives are to ensure effective and efficient
 operations, compliance with applicable laws and regulations, and reliable financial reporting.

 For Fiscal Year 2008, the Foundation is providing an unqualified statement of assurance that its
 internal controls and financial management systems meet the objectives of FMFIA.

 NSF conducted its evaluation of internal control over the effectiveness and efficiency of operations
 and compliance with applicable laws and regulations in accordance with OMB Circular A-123,
 Management’s Responsibility for Internal Control. Based on the results of this evaluation, NSF
 identified no material weaknesses under Section 2 of FMFIA and no system nonconformances
 under Section 4 of FMFIA. NSF provides reasonable assurance that its internal controls over the
 effectiveness and efficiency of operations and its compliance with applicable laws and regulations,
 as of September 30, 2008, were operating effectively, and no material weaknesses were found in
 the design or operation of these internal controls.

 NSF management is responsible for establishing and maintaining effective internal control over
 financial reporting, which includes safeguarding of assets and compliance with applicable laws and
 regulations. NSF conducted its assessment of the effectiveness of the NSF internal control over
 financial reporting in accordance with Appendix A of OMB Circular A-123. Based on the results of
 this evaluation, the NSF can provide reasonable assurance that internal control over financial
 reporting as of June 30, 2008, was operating effectively and no material weaknesses were found in
 the design or operation of internal controls over financial reporting.

 The Federal Financial Management Improvement Act of 1996 (FFMIA) requires agencies to
 implement and maintain financial management systems that are substantially in compliance with
 federal financial management systems requirements, federal accounting standards, and the United
 States Government Standard General Ledger at the transaction level. NSF financial management
 systems substantially comply with FFMIA.




November 7, 2008




                                                 I-12 

                                                                        Management’s Discussion and Analysis



                         FINANCIAL DISCUSSION AND ANALYSIS

The National Science Foundation (NSF) is committed to excellence, transparency, and results-oriented
financial management. The Foundation's goals for financial management stewardship are to deliver the
highest level of business services to our customers, stakeholders, and employees through effective
internal controls and efficient work processes; and to provide reliable and timely financial information to
support sound management decisions. The result has been a long established record of effectiveness in
federal financial management documented by clean audit opinions and “Green” scorecards along with a
leadership role in government-wide grants management activities.

In FY 2008, NSF successfully maintained “Green” ratings in both the President’s Management Agenda
(PMA) financial performance initiative and the Department of Treasury’s Financial Management
scorecard. With respect to improper payments, since NSF has been below the OMB reporting threshold,
the agency is now reporting on a three-year cycle. The next reporting year will be FY 2009.15 In addition,
NSF implemented the new Federal Financial Report (FFR) for grant recipients and for the second year is
participating in OMB’s Pilot Program for Alternative Approaches to Performance and Accountability
Reporting. NSF has a leadership role in a number of federal initiatives, including the CFO Council Grants
Policy Committee and the Federal Funding Accountability and Transparency Act (FFATA) initiative.
Consistent with our leadership role, the agency is pursuing an integrated approach in its involvement with
the grants and financial management lines of business initiatives.

As part of our stewardship commitment, NSF prepares annual financial statements in conformity with
generally accepted accounting principles (GAAP) of U.S. federal government entities and subjects them
to an independent audit to ensure their integrity and reliability in assessing performance. For FY 2008,
NSF received its eleventh consecutive unqualified (clean) audit opinion with no material weaknesses or
significant deficiencies. This was largely the result of the Foundation’s efforts in strengthening its
Contract Monitoring Program and accounting and reporting for property, plant and equipment, which
closed the prior year significant deficiencies.


Understanding the Financial Statements
NSF’s FY 2008 financial statements and notes are presented in accordance with OMB Circular No. A-
136, Financial Reporting Requirements dated June 3, 2008. NSF’s current year financial statements and
notes are presented in a comparative format. The Stewardship Investment schedule presents information
over the last five years. Figure 8 summarizes the significant changes in NSF’s financial position in FY
2008.

                                                   Figure 8.
                          Significant Changes in NSF’s Financial Position in FY 200816
                                              (Dollars in Thousands)
                     Net Financial                                        Increase/
                      Condition           FY 2008         FY 2007        (Decrease)     % Change
                  Assets                 $9,055,028      $8,726,006         $329,022          3.8%
                  Liabilities              $555,048        $515,430          $39,618          7.7%
                  Net Position           $8,499,980      $8,210,576         $289,404          3.5%
                  Net Cost               $5,944,807      $5,636,129         $308,678          5.5%
15
  For more information about Improper Payments Information Act reporting, see Appendix 2, page III-3.
16
  The change in total asset primarily reflects a $362 million increase in Fund Balance with Treasury. Most of the
change in net cost is the result of a $296 million increase in Research and Related Activities.


                                                       I-13 

                                                                                  Management’s Discussion and Analysis




The following is a brief description of the nature of each required financial statement and its relevance.
Certain significant balances or conditions are explained to help clarify their relationship to NSF
operations.

Balance Sheet: The Balance Sheet presents                                               Figure 9.
                                                                                                          P roperty,
the total amounts available for use by NSF                                           FY 2008 Assets      P lant and
(assets) against the amounts owed (liabilities)                                                          E qui pmen t
                                                                                                         $ 26 9.8 M
and amounts that comprise the difference (net                                                              (3.0%)        Accoun ts
                                                                   Funds                                                Receivable
position). Two line items consisting of Fund                    Balan ce with                                            $12.3 M
Balance with Treasury and Property, Plant,                        Treasury                                                (0 .1 %)
and Equipment represent 98.8 percent of                          $8,6 72.7 M
                                                                                                                    Cash & Other
                                                                  (95 .8 %)                        A dvances
NSF’s current year assets (Figure 9). Fund                                                          $6 9.8 M
                                                                                                                     Mon etar y
                                                                                                                       A ssets
Balance with Treasury is funding available                                                           (0.8 %)
                                                                                                                      $ 30.4 M
from which NSF is authorized to make                                                                                   (0.3% )

expenditures and pay amounts due through the
disbursement authority of the Department of
Treasury. Property, Plant, and Equipment
comprises capitalized property located at NSF
headquarters and NSF-owned property located                                                Figure 10.
                                                                                       FY 2008 Liabilities
primarily in the continental U.S., New Zealand
                                                                                                                            Emp loyer
and Antarctica that support the U.S. Antarctic                                     Accrued        A dva nces from         Co ntribu tion s
Program. Advances are funds advanced to NSF                                     A nn ual Lea ve        O thers              a nd O th er
                                                               A ccru ed           $1 5.5 M          $9 7.3 M            $ 1.3 M ( 0.2% )
grantees, contractors, and other government                   Liab ilities -        (2 .8%)           (17 .5 %)
agencies.                                                     Con tracts,
                                                                                                                              FECA
                                                                                                                            Emp loyee
                                                              Payroll, an d
                                                                                                                             Bene fits
                                                                 Other
 Three line items—Accounts Payable, Accrued                    $ 46 .8 M
                                                                                                                         $ 1.5 M (0.3% )

Liabilities-Grants, and Advances from Others—                   (8.4% )
                                                                   Accrued
                                                                                                                  O th er
represent 87.7 percent of NSF’s current year                      Liab ilities -
                                                                                                              Intragovern.
                                                                    Gra nts                     Accounts
liabilities (Figure 10). Accounts Payable                         $3 39 .7 M                                    Liab iliti es
                                                                                                Payable
                                                                                                             $3 .1 M (0 .5 %)
includes liabilities to NSF vendors for unpaid                     (6 1.2% )                 $ 50 .1 M (9 %)
goods and services received. Accrued
Liabilities–Grants are amounts recorded for                Note: Totals may not add due to rounding.
NSF’s grants for which grantees have incurred
costs but have not submitted their financial reports as either Federal Cash Transaction Reports (FCTR) or
Federal Financial Reports (FFR). Advances from Others represents payments received in advance from
other federal agencies through interagency agreements for services that have not been performed.

Statement of Net Cost: This statement presents the annual cost of operating NSF programs. Gross cost
less any offsetting revenue for each NSF program is used to arrive at the net cost of specific program
operations. Intragovernmental Earned Revenues are recognized when these related program or
administrative expenses are incurred and deducted from the full cost of the programs to arrive at the Net
Cost of Operation. Approximately 95.3 percent of all current year NSF costs incurred were directly
related to the support of the Discovery, Learning, and Research Infrastructure strategic goals. Costs were
incurred for indirect general operation activities (e.g., salaries, training, activities related to the
advancement of NSF information systems technology) and activities of the National Science Board and
the Office of Inspector General. These costs were allocated to the Discovery, Learning, and Research




                                                           I-14 

                                                                     Management’s Discussion and Analysis


Infrastructure strategic goals and account for
                                                                               Figure 11.
4.7 percent of the total current year Net Cost of                          FY 2008 Gross Cost
Operations.     These      administrative    and                                                    Research
management activities are the focus of the                                                        Infrastructure
                                                                                                    $ 1,687.1M
agency’s Stewardship strategic goal.                                                                  (27.9%)


Statement of Changes in Net Position: This
                                                                 Disco very

                                                                                                Learning
                                                                 $ 3,410.5 M

                                                                                               $ 955.6 M
statement presents the cumulative net results of                   (56.3%)

                                                                                                 (15.8%)
operation and unexpended appropriations in
order to understand the nature of the changes to  Note: Included in Discovery, Learning, and Research
                                                  Infrastructure is 4.7 percent of NSF’s total funding that is
the net position as a whole. NSF’s Net Position   devoted to Agency Operations and Award Management, the
increased to $8.5 billion in FY 2008 — an         National Science Board, and the Office of Inspector General,
increase of 3.5 percent — primarily due to the    for the administration and management costs addressed by
increase in Unexpended Appropriations and         NSF’s Stewardship strategic goal. (Totals may not add due to
                                                  rounding.)
Cumulative Results of Operations. Unexpended
Appropriations is affected mainly by
Appropriations Received and Appropriations Used while the Cumulative Results of Operations is affected
by the net results of operations since inception.

Statement of Budgetary Resources: This statement provides information on how budgetary resources
were made available to NSF for the year and the status of those budgetary resources at year-end. For FY
2008, new Budgetary Authority for Research and Related Activities, Education and Human Resources
and, Major Research Equipment and Facilities Construction were $4,844 million, $766 million and $221
million, respectively. The combined Budgetary Authority in FY 2008 for the National Science Board,
OIG and Agency Operations and Award Management was $297 million. Total Budgetary Resources
increased by 3.4 percent and Net Outlays increased by 5.8 percent in FY 2008. The Net Outlays reported
on this statement reflects the actual cash disbursed for the year by Treasury for NSF obligations and is
reduced by the amount of Distributed Offsetting Receipts.

Stewardship Investments: NSF-funded investments yield long-term benefits to the general public. NSF
investments in research and education yield quantifiable outputs, including the number of awards made
and the number of researchers, students, and teachers supported or involved in the pursuit of discoveries
in science and engineering and in science and math education. The FY 2008 increase in Research and
Human Capital Activities reflects increased agency funding.


Limitations of the Financial Statements
In accordance with the revised guidance OMB Circular No. A-136 we are disclosing the following
limitations of NSF’s FY 2008 financial statements, which appear in Chapter II of this report: The
financial statements have been prepared to report the financial position and results of operations of NSF,
pursuant to the requirements of 31 U.S.C. 3515(b). While the statements have been prepared from NSF
books and records in accordance with GAAP for federal entities and the format prescribed by OMB, the
statements are, in addition to the financial reports, used to monitor and control budgetary resources which
are prepared from the same books and records. The statements should be read with the realization that
they are for a component of the U.S. government, a sovereign entity.

Budgetary Integrity: NSF Resources and How They Are Used
NSF is funded primarily through six Congressional appropriations that totaled $6.13 billion in FY 2008,
which includes $62.50 million in supplemental funding. Other FY 2008 revenue sources included


                                                    I-15 

                                                                          Management’s Discussion and Analysis


$102.30 million in reimbursable authority, $104.43 in H-1B collections and $62.00 million in donations
to support NSF activities.17 NSF made investments in fundamental science and engineering research and
education in support of the Foundation’s three strategic outcome goals of Discovery, Learning, and
Research Infrastructure. About 5 percent of NSF’s budget was for Stewardship activities that focus on
internal agency operations and award management activities. Investment priorities included the Cyber-
enabled Discovery and Innovation program, the Experimental Program to Stimulate Competitive
Research (EPSCoR), undergraduate education including The Robert Noyce Teacher Scholarship Program
and the Math and Science Partnership Program, and International Polar Year Leadership. NSF also
supported several interagency R&D priorities including the Networking and Information Technology
R&D, the National Nanotechnology Initiative, the U.S. Climate Change Science Program, and Homeland
Security. Among major research facilities and equipment projects supported were the Alaska Region
Research Vessel, the Atacama Large Millimeter Array, and the Advanced LIGO project. At the time of
this report, NSF had not yet received its FY 2009 appropriations.

Financial System Strategy
The goal of NSF’s Financial Accounting System (FAS) is to provide quality business services to our
customers through effective funds control, efficient award processes, and reliable and timely financial
data to inform management decisions. FAS is a custom developed online, near real-time system that
provides the full spectrum of financial transaction functionality required by a grants-making agency and
complies with government-wide rules and regulations for financial management systems.

FAS is integrated with NSF’s core business systems, including the Proposal and Reviewer System
(PARS), Awards System, Guest (panelists) Travel and Reimbursement System, e-Travel System and the
FastLane System that supports grants management. FAS supports both the grant and core financial
processes and is used to monitor, control, and ensure the management and financial accountability of over
21,000 active awards with nearly 1,900 external grantee institutions. FAS distributes funds electronically
to grantees in a seamless and controlled environment and interfaces information to the FastLane system
that allows grantees the ability to check available funds in real-time on a daily basis. The reporting
capabilities built into the FAS software include on-line lookups to verify funds, track commitments and
obligations, and the ability to generate daily, weekly, monthly, and quarterly reports that provide up-to-
date financial information about NSF operations for program and grantee decision support. All FAS-
generated reports are posted electronically and are available to staff via Report.web, which is a web-based
application that streamlines information distribution. In addition, information from FAS is captured and
used in NSF’s Enterprise Information System.

NSF’s ability to meet interface and integration requirements of any government-wide initiative (e.g., e-
Travel and e-Learning); to adopt new legislative, regulatory, and policy requirements as they are
promulgated; and to implement required technical upgrades is resource dependent. Consistent with NSF's
eGovernment Implementation Plan, FAS will remain in a steady-state phase in the FY 2008-FY 2012
timeframe. The Financial Management Line of Business (FMLoB) continues to define government-wide
standards that all agencies will be required to implement. In order to meet these new requirements, NSF is
beginning to develop a strategy for our future financial management system that complies with the
FMLoB guidelines. A key element for the future financial management system is to ensure that NSF
continues to support fully integrated grant financial requirements within the financial system framework.
NSF has initiated planning activities, including documenting our current business processes and
developing a business case. NSF will also identify the interrelationships between the FMLoB and the


17
     Donations of $62.00 million include $508,880 of interest earned on the donations received in FY 2008.


                                                         I-16 

                                                                                      Management’s Discussion and Analysis


Grants Management Line of Business (GMLoB) to ensure that all requirements will be identified to
support NSF’s status as a GMLoB Consortia Lead for grants management.
Key Financial Metrics
This section presents selected key financial measures of NSF’s core business of awarding grants and our
progress in associated electronic processes.

► Treasury Scorecard: Since inception of the Department of Treasury’s Financial Management Service
Scorecard in FY 2004, NSF has consistently received the highest (“Green”) ratings for accuracy and
timeliness of our financial reporting in the quarterly ratings (Figure 12.)

                                                             Figure 12.
                                U.S. Department of Treasury Financial Management Scorecard
                                                                                                           Results (as of
                   Category                                        Standard
                                                                                                             6/30/08)*
                                       Green : If differences are outstanding for less than 3 months.
                                       Yellow: If differences are older than 3 months but less than 6           G
          Accuracy of Reporting**
                                       months.
                                       Red: If differences are older than 6 months.
                                       Green : If original and supplemental reporting are completed by
                                       the third workday.
          Timeliness of                Yellow: If original report is submitted by the 3rd workday and           G
          Reporting*                   supplemental report submitted on the 4th workday.
                                       Red: If original report is submitted after the 3rd workday and/or
                                       supplemental submitted after the 4th workday.
           *Most current data available.
           ** FMS 224, SF1218/1221, and FMS 1219/1220.




► Federal Cash Transaction Report (FCTR) and Federal Financial Report (FFR): Figure 13 focuses
on OMB’s SF 272 FCTR and FFR processes, which are key elements of NSF’s core grant business.
                                                             Figure 13.


                                           Percent of FFR's / FCTR's Received
                     99.0%           99.9%         100.0%         99.9%          99.8%         99.8%                % Received
        100%
         95%
                                                                                                                    % Received by
         90%                                                                                                        due date
         85%
                                                                                                                    % Received
         80%                                                                                                        One Wk After
                                                                                                                    Due date
         75%
                    FY2003          FY2004         FY2005        FY2006         FY2007       FY2008-Q3



       Note: FY 2008 includes only the first three quarters, which is the most recent data available at this time.




                                                                I-17 

                                                                                                       Management’s Discussion and Analysis


Grantees are required to report the status of funds received from NSF on a quarterly basis through the
submission of a FCTR or FFR report. The reports are prepared and submitted electronically to NSF by the
grantee through the FastLane Financial Function. NSF performs follow-up actions with the preparers to
ensure receipt of reports, as evidenced by the increase in report submissions received by one week after
the due date. As shown on the chart above, through the third quarter of FY 2008, nearly 85 percent of
NSF grantees submitted their FCTR or FFR reports by the due date and over 95 percent of grantees
submitted their FCTR or FFR reports within one week after the due date. By the end of the quarter, nearly
100 percent of grantees had submitted their reports.

► Cash-on-Hand: Figure 14 shows the results of NSF’s increased emphasis on enhanced FFR/FCTR
monitoring activities implemented in January 2005. Unexpended federal cash held by grantees has
decreased by over $19 million from a quarterly average of $47.3 million in 2003 to a quarterly average of
$28.2 million in 2008. This decrease was due to improved cash management by grantees as a result of the
effective NSF monitoring activities.

                                                                                Figure 14.

                                                               Quarterly Average Cash on Hand
                               $60
     Cash on Hand (Millions)




                               $50
                               $40
                               $30
                               $20
                               $10
                                 $0
                                           FY2003            FY2004            FY2005           FY2006            FY2007          FY2008-Q3


                               Note: FY 2008 includes only the first three quarters, which is the most recent data available at this time.



► FMLoB Financial Management Services Metrics (FMSM) Program: In 2007, NSF began
participating in the FMSM Program developed by the FMLoB, in collaboration with the federal financial
management community. The FMSM Program established a set of metrics to facilitate an assessment of
financial services government-wide. FMSM metrics have been designed to help identify opportunities to
improve the performance and affordability of the financial services provided by Shared Service Providers
and federal agencies. NSF’s collaboration with the FMLoB maintains progress in improving financial
performance.

► CFO Council Metric Tracking System (MTS) Financial Management Indicators: Generally, since
the MTS was launched in January 2005, NSF has had the most consistently high scores of any
government agency. To see scorecards and for additional information about the Metrics Tracking System,
see http://www.fido.gov/mts/cfo/public.




                                                                                   I-18 

                                                                               Management’s Discussion and Analysis


                                                            Figure 15.

                                                          Recent Trends

  The following table summarizes several of NSF’s key workload and financial indicators. Obligations are a direct result of
  each year’s appropriation while expenses reflect multiple years of prior obligations. Of significance is the 14 percent
  increase since FY 2005 in the number of competitive awards while staffing (FTE) has increased less than 5 percent.

                                                                                                      %Change
                                                              FY 2005   FY 2006   FY 2007   FY 2008 FY 05-08
          Obligations Incurred *                              $5,653.90 $5,878.01 $6,169.19 $6,361.93   12.5%
          NSF Expenses (Net of Reimbursements)*               $5,408.17 $5,595.76 $5,636.13 $5,944.81     9.9%
          Stewardship (Expenses) *                              $292.43   $321.09   $275.99   $283.25    -3.1%
          FTE (includes OIG)                                      1,279     1,277     1,310     1,339     4.7%
          Competitive Proposals                                  41,760    42,377    44,598    44,441     6.4%
          Competitive Awards                                      9,794    10,450    11,484    11,162   14.0%
          Average Annual Award Size                            $143,669 $134,595 $144,804 $143,527       -0.1%
          Average Award Duration (in years)                         2.9       2.9       2.9       3.0     3.4%
          Number of Grant Payments                               19,464    19,714    19,074    19,481     0.1%
          Dollar Amount of Grant Payments*                    $4,833.76 $4,884.51 $4,909.90 $5,122.54     6.0%
        * Dollars in Millions



                                                   Percent Change: FY 2005 to FY 2008

                                                                                                      12.5%
          Obligations Incurred

                                                                                              9.9%
          NSF Expenses (Net of Reimbursements)

          Stewardship Expenses
                   -3.1%

          FTE (includes OIG)
                                                  4.7%
          Competitve Proposals
                                                       6.4%

          Competitive Awards
                                                                             14.0%
          Average Annual Award Size
                      -0.1%
          Average Award Duration (in yrs)
                                 3.4%
          Number of Grant Payments
                               0.1%
          Dollar Amount of Grant Payments
                                         6.0%

                                             -5%               0%            5%              10%           15%




Future Business Trends and Events
The future will require a continued focus on management excellence through increased attention to
specific financial operations and strategic issues. New administrative policy initiatives mandate that NSF,
like other federal agencies, demonstrate consistent progress in improving financial management practices
as well as adapt to changing management and policy initiatives. We are committed to leveraging
technology and human capital resources to improve operations and services to our customers and
stakeholders. In addition, we proactively address management challenges identified through internal
review and oversight. In this section, we describe some of the areas that the agency will be focusing on in
both the immediate future and the long term.



                                                              I-19 

                                                                  Management’s Discussion and Analysis


► Internal Controls: In FY 2008, NSF fully implemented its agency-wide internal control program as
required by OMB Circular A-123, Management’s Responsibility for Internal Control. The Internal
Control Program includes documentation of nine Key Business Processes relating to controls over
financial reporting. NSF has developed a sustainable Internal Control Program and will continue making
improvements to its program as it addresses emerging issues. The program also includes a practice of
developing more effective and efficient ways of operating programmatic activities.

► Federal Financial Report (FFR): OMB has approved the FFR as the replacement for existing grant
recipient financial reports with full implementation to be completed by all federal agencies not later than
October 1, 2009. The FFR will simplify reporting requirements, procedures, and associated business
processes by utilizing a standardized pool of data elements as defined by the Grants Policy Committee of
the Federal Chief Financial Officers Council. NSF first implemented the FFR in FastLane Financial
Functions as an optional grantee expenditure report during July 2007 and intends to make the FFR the
required financial report in January 2009. Additionally, NSF developed an FFR within its Research.gov
initiative that will be offered to other federal research-oriented agencies. NSF’s FFR will assist OMB in
advancing Federal Grants Streamlining initiatives. It will also reinforce NSF leadership within the federal
grants management arena and maintain the customized integration of business processes and systems
inherent in NSF’s end-to-end systems.

► Financial Service Offerings of the NSF FMLoB: NSF has begun planning for a new financial and
property management system under the FMLoB to replace the current legacy system. The current NSF
financial management environment includes extensive integration with the grant systems and a host of
other business systems. Implementing a new financial system will require extensive planning and
coordination across all NSF business systems. One of the key success factors of NSF as a grant making
agency is the integration between our financial and grant management systems.

Additionally, NSF is one of the federal government’s consortia leads for the FMLoB in a fee-for-service
environment to other federal agencies. As such, NSF is becoming a Shared Service Provider with its
Research.gov initiative. Through Research.gov, NSF is in the process of developing financial service
offerings that include grant payments, grantee financial reporting, and centralized grant accounting. These
offerings will complement and extend the shared services to be offered for pre-and post-award grant
management services. NSF is continuing to leverage the advantages of an integrated environment as it
moves forward with its financial and property management systems’ efforts.

► Federal Funding Accountability and Transparency Act (FFATA) of 2006: NSF has made
significant progress in complying with the requirements of FFATA. In November 2007, NSF began
submitting grants data in the required format for posting to USASpending.gov, and in December 2007
submitted a plan to OMB that identified data gaps, quality assurance measures, and a plan to address
deficiencies for future data submissions. The future challenges for NSF in complying with the FFATA
include the costs to be incurred and policy changes necessary to collect and report sub-award data as well
as validation and certification of the data.




                                                   I-20 

                               CHAPTER II: FINANCIALS 





A MESSAGE FROM THE CHIEF FINANCIAL OFFICER                              





I am pleased to report that in FY 2008 the National Science Foundation (NSF) received an unqualified
audit opinion, affirming that NSF’s financial statements for the year ended September 30, 2008, were
presented fairly in all material respects, in conformity with U.S. generally accepted accounting principals.
The audit report noted no material weaknesses or significant deficiencies. I am especially pleased that
NSF has closed its FY 2007 significant deficiencies, largely as a result of our efforts in strengthening the
Contract Monitoring Program and accounting and reporting for Property, Plant and Equipment (PP&E).

Of note this year is the agency’s implementation of an agency-wide internal control program. In response
to the Office of Management and Budget’s (OMB) update of Circular A-123, NSF re-engineered the
internal control program, from a “bottom up” to a “top down” approach. A “top down” approach more
efficiently leverages existing control review processes, internal and external audit work, and other
mandated reviews as well as provides greater assurance that all key controls are identified and assessed.
In an effort that spanned three years, NSF documented and tested all key business processes and sub-
processes. In the last year, emphasis was on refining our risk assessment methodology and strengthening
documentation for grants and PP&E activities. The internal control review found no evidence of material
weaknesses in either NSF’s financial controls or entity-wide controls and management has determined
that NSF programs and operations are protected in accordance with OMB guidance. (The management
assurance statement is provided elsewhere in this report.) As we move forward, we will continue to
examine our internal control structure to ensure it stays updated with changing events.

Other notable accomplishments during the year include the following:

       NSF successfully maintained a “Green” rating for the President’s Management Agenda (PMA)
        financial performance initiative. NSF’s financial performance initiative has been rated “Green” since
        inception of the PMA scorecard.

       NSF consistently received over 99 percent of quarterly Federal Cash Transaction Reports (FCTR)
        from grant recipients—a collection rate that significantly exceeds that of other federal agencies.
        As part of the Federal Grants Streamlining Initiative, beginning in January 2009, NSF will
        replace the FCTR with the new, more simplified Federal Financial Report (FFR). The NSF FFR
        pilot is the largest of the federal government; NSF will be the first federal agency to implement
        full use of the FFR. NSF continues to work with OMB to streamline and standardize federal grant
        recipient financial reporting and to replace the FCTR government-wide in FY 2009.

       NSF maintains an active leadership role in the federal grants management arena including the
        CFO Council Grants Policy Committee and the Grants Management Line of Business Initiative.
        NSF is forging the integration of grants and financial management that should result in
        considerable cost and operations efficiencies.



                                                  II-1

                                                                                            Financials


      For a second year, NSF is participating in OMB’s Pilot Program for Alternative Approaches to
       Performance and Accountability reporting, for which we have prepared this Annual Financial
       Report. Our participation in the pilot is in line with the agency’s commitment to continuing
       improvement in performance and accountability reporting to our stakeholders and the public. Our
       efforts have been recognized recently with awards from the League of American
       Communications Professionals and the Association of Marketing and Communications
       Professionals.

Sound financial management enables NSF to pursue the critical investments in science and engineering
research and education that help ensure our nation’s security, prosperity, and well being. As our work
grows more complex and challenging with the increase in financial oversight and accountability
requirements, I wish to acknowledge a diligent staff for their dedication to the Foundation.




                                         Thomas N. Cooley

                                       Chief Financial Officer 

                     and Director of Budget, Finance, and Awards Administration 


                                         November 10, 2008 





                                               II-2

A1
 
                                   INDEPENDENT AUDITOR’S REPORT
Inspector General, National Science Foundation
Director, National Science Foundation
Chair of National Science Board

In our audit of NSF for fiscal year (FY) 2008 we found:

     •	 The NSF financial statements are presented fairly, in all material respects, in conformity
        with accounting principles generally accepted in the United States of America;
     •	 No material weaknesses in internal control over financial reporting (including
        safeguarding assets) and compliance with laws and regulations;
     •	 Significant progress has been made in FY 2008 on the two control deficiency conditions
        noted in the FY 2007 auditor’s report and, accordingly, neither of those matters are
        considered to be a significant deficiency;
     •	 No instances of noncompliance with the Federal Financial Management Improvement
        Act of 1996 (FFMIA);
     •	 No instances of noncompliance with laws and regulations, except for a potential matter of
        non-compliance with respect to the Anti-Deficiency Act.

The following sections discuss in more detail: (1) these conclusions, (2) our conclusions on
Management’s Discussion and Analysis (MD&A) and other supplementary information, (3) our
audit objectives, scope and methodology, and (4) agency comments and evaluation.

OPINION ON FINANCIAL STATEMENTS
The accompanying financial statements including the accompanying notes present fairly, in all
material respects, in conformity with accounting principles generally accepted in the United
States, NSF’s assets, liabilities, and net position as of September 30, 2008 and 2007; and net
costs; changes in net position; and budgetary resources for the years then ended.

CONSIDERATION OF INTERNAL CONTROL
In planning and performing our audit, we considered NSF’s internal control over financial
reporting as a basis for designing our auditing procedures and to comply with the Office of
Management and Budget (OMB) audit guidance for the purpose of expressing our opinion on the
financial statements, but not for the purpose of expressing an opinion on the effectiveness of the
entity’s internal control over financial reporting. Accordingly, we do not express an opinion on
the effectiveness of the entity’s internal control over financial reporting or on management’s
assertion on internal control included in the MD&A.




Offices in 16 states and Washington, DC	           II-5                            h              
Our consideration of internal control over financial reporting was for the limited purpose
described in the preceding paragraph and would not necessarily identify all deficiencies in
internal control over financial reporting that might be significant deficiencies or material
weaknesses.

A control deficiency exists when the design or operation of a control does not allow management
or employees, in the normal course of performing their assigned functions, to prevent or detect
misstatements on a timely basis. A significant deficiency is a control deficiency, or combination
of control deficiencies, that adversely affects the entity’s ability to initiate, authorize, record,
process, or report financial data reliably in accordance with generally accepted accounting
principles such that there is more than a remote likelihood that a misstatement of the entity’s
financial statements that is more than inconsequential will not be prevented or detected by the
entity’s internal control.

A material weakness is a significant deficiency, or combination of significant deficiencies, that
results in more than a remote likelihood that a material misstatement of the financial statements
will not be prevented or detected by the entity’s internal control.

Our consideration of internal control over financial reporting was for the limited purpose
described in the first paragraph of this section and would not necessarily identify all deficiencies
in internal control that might be material weaknesses or other significant deficiencies. We did
not identify any deficiencies in internal control over financial reporting that we consider to be
material weaknesses, as defined above.

We did, however, note other matters involving internal control and its operation that are not
considered significant deficiencies, but are communicated in a separate management letter to
NSF management.

SYSTEMS’ COMPLIANCE WITH FFMIA REQUIREMENTS
Under the Federal Financial Management Improvement Act of 1996 (FFMIA), we are required
to report whether the financial management systems used by NSF substantially comply with the
Federal financial management systems requirements, applicable Federal accounting standards,
and the United States Standard General Ledger (SGL) at the transaction level. To meet this
requirement, we performed tests of compliance with FFMIA Section 803(a) requirements.

The objective of our audit was not to provide an opinion on compliance with FFMIA.
Accordingly, we do not express such an opinion. However, our work disclosed no instances in
which NSF’s financial management systems did not substantially comply with Federal financial
management systems requirements, Federal accounting standards or the SGL at the transaction
level.




                                                   II-6
                                         
COMPLIANCE WITH LAWS AND REGULATIONS


Except as noted below, our tests of NSF’s compliance with selected provisions of laws and
regulations for fiscal 2008 disclosed no instances of noncompliance that would be reportable
under United States generally accepted government auditing standards or OMB audit guidance.
However, the object of our audit was not to provide an opinion on overall compliance with laws
and regulations. Accordingly, we do not express such an opinion.

The following matter was identified as a potential matter of non-compliance with the Anti-
Deficiency Act:

    •	 NSF’s Office of General Counsel (OGC) is currently evaluating a potential Anti-Deficiency
     Act (ADA) violation pertaining to a FY 2006 $88,000 payment to a contractor in excess of
     its related appropriation. In October 2008, OGC requested the Government Accountability
     Office (GAO) to assist them in determining NSF’s compliance with the ADA for this matter.
     In addition, the matter was also shared with the OMB. NSF has not made a final legal
     determination on this potential non-compliance and, accordingly, has not yet needed to
     comply with the violation reporting requirements stipulated in OMB Circular A-11.


STATUS OF PRIOR YEAR’S CONTROL DEFICIENCIES
As required by United States generally accepted government auditing standards and OMB
Bulletin No. 07-04, as amended, we have reviewed the status of NSF’s corrective actions with
respect to the findings and recommendations included in the prior year’s Independent Auditor’s
Report dated November 10, 2007. The prior year audit report noted two control deficiencies: 1)
Contract Monitoring and 2) Property, Plant and Equipment Accounting and Reporting. NSF
management has implemented substantial changes to its procedures in both these areas and,
accordingly, neither of the prior year findings are considered a Significant Deficiency for
purposes of this report.


CONSISTENCY OF OTHER INFORMATION
NSF Management’s Discussion and Analysis (MD&A) and other required supplementary
information contains a wide range of information, some of which is not directly related to the
financial statements. We compared this information for consistency with the financial statements
and discussed the methods of measurement and presentation with NSF officials. Based on this
limited work, we found no material inconsistencies with the financial statements, U.S. generally
accepted accounting principles, or OMB guidance. However, we do not express an opinion on
this information.

The introductory information, performance information and appendixes listed in the table of
contents of the MD&A are presented for additional analysis and are not a required part of the
financial statements. Such information has not been subjected to the auditing procedures applied
in the audit of the financial statements and, accordingly, we express no opinion on them.

                                                  II-7
                                      
OBJECTIVES, SCOPE AND METHODOLOGY

NSF management is responsible for (1) preparing the financial statements in conformity with
accounting principles generally accepted in the United States, (2) establishing, maintaining, and
assessing internal control to provide reasonable assurance that the broad control objectives of the
Federal Managers’ Financial Integrity Act (FMFIA), are met, (3) ensuring that NSF’s financial
management systems substantially comply with FFMIA requirements, and (4) complying with
other applicable laws and regulations.

We are responsible for obtaining reasonable assurance about whether the financial statements are
presented fairly, in all material respects, in conformity with accounting principles generally
accepted in the United States. We are also responsible for: (1) obtaining a sufficient
understanding of internal control over financial reporting and compliance to plan the audit, (2)
testing whether NSF’s financial management systems substantially comply with the three
FFMIA requirements, (3) testing compliance with selected provisions of laws and regulations
that have a direct and material effect on the financial statements and laws for which OMB audit
guidance requires testing, and (4) performing limited procedures with respect to certain other
information appearing in the Annual Financial Report.

In order to fulfill these responsibilities, we (1) examined, on a test basis, evidence supporting the
amounts and disclosures in the financial statements, (2) assessed the accounting principles used
and significant estimates made by management, (3) evaluated the overall presentation of the
financial statements, (4) obtained an understanding of NSF and its operations, including its
internal control related to financial reporting (including safeguarding of assets), and compliance
with laws and regulations (including execution of transactions in accordance with budget
authority), (5) tested relevant internal controls over financial reporting, and compliance, and
evaluated the design and operating effectiveness of internal control, (6) considered the design of
the process for evaluating and reporting on internal control and financial management systems
under FMFIA, (7) tested whether NSF’s financial management systems substantially complied
with the three FFMIA requirements, and (8) tested compliance with selected provisions of
certain laws and regulations.

We did not evaluate all internal controls relevant to operating objectives as broadly defined by
the FMFIA, such as those controls relevant to preparing statistical reports and ensuring efficient
operations. We limited our internal control testing to controls over financial reporting and
compliance. Because of inherent limitations in internal control, misstatements due to error or
fraud, losses, or noncompliance may nevertheless occur and not be detected. We also caution
that projecting our evaluation to future periods is subject to risk that controls may become
inadequate because of changes in conditions or that the degree of compliance with controls may
deteriorate. In addition, we caution that our internal control testing may not be sufficient for
other purposes.

We did not test compliance with all laws and regulations applicable to NSF. We limited our tests
of compliance to selected provisions of laws and regulations that have a direct and material
effect on the financial statements and those required by OMB audit guidance that we deemed
applicable to NSF’s financial statements for the fiscal year ended September 30, 2008. We

                                                    II-8
                                         
caution that noncompliance with laws and regulations may occur and not be detected by these
tests and that such testing may not be sufficient for other purposes.

We performed our audit in accordance with auditing standards generally accepted in the United
States; the standards applicable to the financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and OMB guidance.


AGENCY COMMENTS AND OUR EVALUATION
In commenting on a draft of this report (Exhibit I), NSF concurred with the facts and conclusions
in our report.

                           *********************************

This report is intended solely for the information and use of NSF’s management, the National
Science Board, NSF’s Office of Inspector General, OMB, the Government Accountability
Office, and the U.S. Congress, and is not intended to be, and should not be, used by anyone other
than these specified parties.


A1 
Calverton, Maryland
November 10, 2008




                                                  II-9
                                       
                                        EXHIBIT I





      NATIONAL SCIENCE FOUNDATION

    MANAGEMENT’S RESPONSE TO FY 2008

     INDEPENDENT AUDITOR’S REPORT

             November 10, 2008





                    II-10
                      
National Science Foundation

    FINANCIAL STATEMENTS

    As of and for the years ended

     September 30, 2008 and 2007




                II-12 

                                                                                     Principal Financial Statements


                                            National Science Foundation
                                                   Balance Sheet
                                         As of September 30, 2008 and 2007
                                              (Amounts in Thousands)

Assets                                                                              2008             2007

    Intragovernmental Assets
        Fund Balance With Treasury (Note 2)                                  $     8,672,672 $        8,310,182
        Accounts Receivable                                                           11,928             24,561
        Advances (Note 3)                                                             15,284             35,255
    Total Intragovernmental Assets                                                 8,699,884          8,369,998

    Cash and Other Monetary Assets                                                    30,410            16,228
    Accounts Receivable, Net                                                             391               247
    Advances (Note 3)                                                                 54,549            79,326
    General Property, Plant and Equipment, Net (Notes 4 and 5)                       269,794           260,207
Total Assets                                                                 $     9,055,028 $        8,726,006

Liabilities

    Intragovernmental Liabilities
        Advances From Others                                                 $        97,260 $          72,018
        Employer Contributions and Other                                               1,270               745
        FECA Employee Benefits                                                           298               292
        Other Intragovernmental Liabilities (Notes 6 and 8)                            3,050             3,050
    Total Intragovernmental Liabilities                                              101,878            76,105

    Accounts Payable                                                                  50,066            38,358
    FECA Employee Benefits                                                             1,198             1,182
    Accrued Liabilities - Grants                                                     339,652           360,475
    Accrued Liabilities - Contracts, Payroll, and Other                               46,779            25,046
    Accrued Annual Leave                                                              15,475            14,264
Total Liabilities                                                            $       555,048 $         515,430

    Commitments and Contingencies (Note 8)

Net Position

    Unexpended Appropriations - Other Funds                                  $     7,813,135 $        7,587,271
    Cumulative Results of Operations - Earmarked Funds (Note 9)                      364,640            334,664
    Cumulative Results of Operations - Other Funds                                   322,205            288,641
Total Net Position                                                                 8,499,980          8,210,576

Total Liabilities and Net Position                                           $     9,055,028 $        8,726,006




                          The accompanying notes are an integral part of these statements.




                                                          II-13 

                                                                                  Principal Financial Statements


                                       National Science Foundation
                                           Statement of Net Cost
                             For the Years Ended September 30, 2008 and 2007
                                         (Amounts in Thousands)

Program Costs                                                                     2008             2007

   Research and Related Activities
      Gross Costs                                                          $     4,835,276 $       4,507,933
      Less: Earned Revenues                                                        (99,471)          (68,500)
   Net Research and Related Activities                                           4,735,805         4,439,433

   Education and Human Resources
      Gross Costs                                                          $       870,111 $         904,482
      Less: Earned Revenues                                                         (8,914)           (8,270)
   Net Education and Human Resources                                               861,197           896,212

   Major Research Equipment and Facilities Construction
      Gross Costs                                                          $       232,158 $         222,926
      Less: Earned Revenues                                                              -                 -
   Net Major Research Equipment and Facilities Construction                        232,158           222,926

   Costs Not Assigned to Other Programs
      Gross Costs                                                          $       115,647 $          77,558
      Less: Earned Revenues                                                              -                 -
   Net Costs Not Assigned to Other Programs                                        115,647            77,558

Net Cost of Operations (Note 10)                                           $     5,944,807 $       5,636,129




                        The accompanying notes are an integral part of these statements.



                                                       II-14 

                                                                                    Principal Financial Statements


                                            National Science Foundation
                                       Statement of Changes in Net Position
                                      For the Year Ended September 30, 2008
                                              (Amounts in Thousands)
                                                                                         2008

                                                                       Earmarked       All Other         Total
Cumulative Results of Operations

Beginning Balances (Note 9)                                        $      334,664            288,641      623,305

Budgetary Financing Sources
   Appropriations Used                                                          -       5,833,031        5,833,031
   Non-exchange Revenue                                                         -             509              509
   Donations                                                                    -          61,495           61,495
   Appropriated Earmarked Receipts Transferred In (Note 9)                104,430               -          104,430

Other Financing Sources
   Imputed Financing From Costs Absorbed By Others                              -           9,048            9,048
   Other                                                                        -            (166)            (166)
Total Financing Sources                                                   104,430       5,903,917        6,008,347

Net Cost of Operations (Notes 9 and 10)                                    74,454       5,870,353        5,944,807

Cumulative Results of Operations (Note 9)                          $      364,640            322,205      686,845




Unexpended Appropriations

Beginning Balances                                                 $            -       7,587,271        7,587,271

Budgetary Financing Sources
   Appropriations Received                                                      -        6,127,500       6,127,500
   Appropriations Transferred In / (Out)                                        -           (2,240)         (2,240)
   Other Adjustments                                                            -          (66,365)        (66,365)
   Appropriations Used                                                          -       (5,833,031)     (5,833,031)
Total Budgetary Financing Sources                                               -          225,864         225,864

Total Unexpended Appropriations                                                 -       7,813,135        7,813,135


Net Position                                                       $      364,640       8,135,340        8,499,980




                          The accompanying notes are an integral part of these statements.


                                                         II-15 

                                                                                    Principal Financial Statements


                                            National Science Foundation
                                       Statement of Changes in Net Position
                                      For the Year Ended September 30, 2007
                                              (Amounts in Thousands)
                                                                                         2007

                                                                    Earmarked          All Other        Total
Cumulative Results of Operations

Beginning Balances (Note 9)                                     $       279,282              271,120     550,402

Budgetary Financing Sources
   Appropriations Used                                                        -         5,552,427      5,552,427
   Non-exchange Revenue                                                       -               407            407
   Donations                                                                  -            40,874         40,874
   Appropriated Earmarked Receipts Transferred In (Note 9)              107,359                 -        107,359

Other Financing Sources
   Transfers In / (Out) Without Reimbursement                                 -                (2)            (2)
   Imputed Financing From Costs Absorbed By Others                            -             9,336          9,336
   Other                                                                      -            (1,369)        (1,369)
Total Financing Sources                                                 107,359         5,601,673      5,709,032

Net Cost of Operations (Notes 9 and 10)                                  51,977         5,584,152      5,636,129

Cumulative Results of Operations (Note 9)                       $       334,664              288,641     623,305




Unexpended Appropriations

Beginning Balances                                              $              -        7,255,489      7,255,489

Budgetary Financing Sources
   Appropriations Received                                                     -        5,917,165       5,917,165
   Appropriations Transferred In / (Out)                                       -            5,710           5,710
   Other Adjustments                                                           -          (38,666)        (38,666)
   Appropriations Used                                                         -       (5,552,427)     (5,552,427)
Total Budgetary Financing Sources                                              -          331,782         331,782

Total Unexpended Appropriations                                                -        7,587,271      7,587,271


Net Position                                                    $       334,664         7,875,912      8,210,576




                          The accompanying notes are an integral part of these statements.



                                                         II-16 

                                                                                  Principal Financial Statements


                                         National Science Foundation
                                Statement of Budgetary Resources (page 1 of 2)
                               For the Years Ended September 30, 2008 and 2007
                                           (Amounts in Thousands)

                                                                                           2008         2007
Budgetary Resources

   Unobligated Balance - Brought Forward, October 1                              $         218,677 $    203,544

   Recoveries of Prior Year Unpaid Obligations                                              59,168       44,474

   Budget Authority
      Appropriation                                                                   6,293,934        6,065,805
      Spending Authority From Offsetting Collections
          Earned
                  Collected                                                                121,234        90,844
                  Change in Receivables From Federal Sources                               (12,634)      (12,972)
          Change in Unfilled Customer Orders
                  Advance Received                                                       25,243           70,425
                  Without Advance From Federal Sources                                  (31,520)         (41,296)
   Subtotal - Budget Authority                                                        6,396,257        6,172,806

   Nonexpenditure Transfers, Net - Actual                                                   (2,240)        5,710

   Permanently Not Available                                                               (66,365)      (38,666)

Total Budgetary Resources (Note 13)                                              $    6,605,497 $      6,387,868




                        The accompanying notes are an integral part of these statements.


                                                       II-17 

                                                                                     Principal Financial Statements


                                           National Science Foundation
                                 Statement of Budgetary Resources (page 2 of 2)
                                For the Years Ended September 30, 2008 and 2007
                                            (Amounts in Thousands)
                                                                                         2008           2007
Status of Budgetary Resources

   Obligations Incurred
      Direct (Note 12)                                                           $      6,259,622 $   6,063,147
      Reimbursable (Note 12)                                                              102,305       106,044
   Total Obligations Incurred (Notes 13 and 15)                                         6,361,927     6,169,191
   Unobligated Balance - Apportioned (Note 2)                                              157,926      141,709
   Unobligated Balance - Not Available (Notes 2 and 13)                                     85,644       76,968

Total Status of Budgetary Resources (Note 13)                                    $      6,605,497 $   6,387,868

Change in Obligated Balances
   Obligated Balance, Net
      Unpaid Obligations - Brought Forward, October 1                                   8,180,395     7,747,341
          Less: Uncollected Customer Payments From
                 Federal Sources - Brought Forward, October 1                              (72,662)    (126,930)
   Total Unpaid Obligated Balance, Net                                                  8,107,733     7,620,411
   Obligations Incurred (Note 13)                                                       6,361,927     6,169,191
   Less:   Gross Outlays                                                               (5,995,134)    (5,691,662)
   Less:   Recoveries of Prior Year Unpaid Obligations, Actual                             (59,168)     (44,474)
   Change in Uncollected Customer Payments From Federal Sources                            44,154        54,267
   Subtotal                                                                      $      8,459,512 $   8,107,733
   Obligated Balance, Net - End of Period
      Unpaid Obligations                                                                8,488,021     8,180,395
          Less: Uncollected Customer Payments From Federal Sources                        (28,509)      (72,662)
   Total Unpaid Obligated Balance, Net - End of Period (Note 2)                  $      8,459,512 $   8,107,733

Net Outlays
   Gross Outlays                                                                        5,995,134     5,691,662
      Less: Offsetting Collections                                                       (146,476)     (161,269)
      Less: Distributed Offsetting Receipts                                                (1,038)       (1,535)
Net Outlays                                                                      $      5,847,620 $   5,528,858




                        The accompanying notes are an integral part of these statements.



                                                          II-18 

                                                             Notes to the Principal Financial Statements
                                            September 30, 2008 and 2007 (Dollar Amounts in Thousands)


Note 1.         Summary of Significant Accounting Policies

A. Reporting Entity
The National Science Foundation (NSF or “Foundation”) is an independent federal agency created by the
National Science Foundation Act of 1950, as amended (42 U.S.C. 1861-75). Its mission is to promote and
advance scientific progress in the United States. NSF initiates and supports scientific research and
research fundamental to the engineering process and programs to strengthen the nation’s science and
engineering potential. NSF also supports education programs at all levels in all fields of science and
engineering. NSF funds research and education in science and engineering by awarding grants and
contracts to educational and research institutions in all parts of the United States. NSF, by law, cannot
operate research facilities except in the polar regions. By award, NSF enters into relationships to fund the
research operations conducted by grantees.

NSF is headed by Director who is appointed by the President and confirmed by the Senate. The National
Science Board (NSB), also appointed by the President with the consent of the Senate, meets about six
times a year to establish the overall polices of the Foundation. The NSB, composed of 24 members,
represents a cross section of American leaders in science and engineering research and education;
members are appointed for six-year terms. The NSF Director is a member ex officio of the Board.

B. Basis of Presentation
These financial statements have been prepared to report the financial position and results of operations of
NSF as required by the Chief Financial Officers Act of 1990, the Government Management Reform Act
of 1994, the Reports Consolidation Act of 2000, and the Office of Management and Budget (OMB)
Circular A-136, "Financial Reporting Requirements." While the statements have been prepared from the
books and records of NSF in accordance with United States generally accepted accounting principles
(U.S. GAAP) for federal entities and the formats prescribed by OMB, the statements are in addition to the
financial reports used to monitor and control budgetary resources which are prepared from the same
books and records.

C. Basis of Accounting
The accompanying financial statements have been prepared in accordance with U.S. GAAP for federal
entities using the accrual method of accounting. Under the accrual method, revenues are recognized when
earned and expenses are recognized when a liability is incurred, without regard to receipt or payment of
cash. The accompanying financial statements also include budgetary accounting transactions that
facilitate compliance with legal constraints and controls over the use of federal funds.

D. Revenues and Other Financing Sources
NSF receives the majority of its funding through appropriations contained in the Science, State, Justice,
Commerce, and Related Agencies Appropriations Act. NSF receives annual, multi-year, and no-year
appropriations that may be expended, within statutory limits. NSF also receives funding via warrant from
a special earmarked receipt account that is reported as H-1B funds. Additional amounts are obtained from
reimbursements for services provided to other federal agencies as well as from receipts to the donation
account. Also, NSF receives interest earned on overdue receivables and excess cash advances to grantees.
The interest earned on overdue receivables and excess cash advances to grantees is returned to the
Treasury at the end of each fiscal year.

The Consolidated Appropriations Act of fiscal year 2008 under Public Law 110-161 provides funding for
each of NSF's appropriations and rescinds a portion of carryover funding from prior years. Additionally,
on June 30, 2008 Congress passed a Supplemental Appropriations Act under Public Law 110-252 that



                                                   II-19 

                                                              Notes to the Principal Financial Statements
                                             September 30, 2008 and 2007 (Dollar Amounts in Thousands)

provides annual funding to the Research and Related Activities and Education and Human Resources
appropriations.

Appropriations are recognized as a financing source at the time the related “funded” program or
administrative expenditures are incurred. Appropriations are also recognized when used to purchase
property, plant and equipment. “Unfunded” liabilities result from liabilities not covered by budgetary
resources and will be paid when future appropriations are made available for these purposes. Donations
are recognized as revenues when funds are received. Revenues from reimbursable agreements are
recognized when the services are provided and the related expenditures are incurred. Reimbursable
agreements are mainly for grant administrative services provided by NSF on behalf of other federal
agencies.

Under the general authority of the Foundation, NSF is authorized to accept into the NSF Donations
Account and use both U.S. and foreign funds. In accordance to 42 U.S.C. 1862 Section 3 (a)(3), NSF has
authority “to foster the interchange of scientific and engineering information among scientists and
engineers in the United States and foreign countries” and in 42 U.S.C. 1870 Section 11 (f), NSF is
authorized to receive and use funds donated by others. Donations may be received from foreign
governments, private companies, academic institutions, non-profit foundations, and individuals. These
funds must be donated without restriction other than that they be used in furtherance of one or more of the
general purposes of the Foundation. Funds are made available for obligations as necessary to support NSF
programs.

E. Fund Balance with Treasury and Cash and Other Monetary Assets
Cash receipts and disbursements are processed by the Treasury. Fund Balance with Treasury is composed
primarily of appropriated funds that are available to pay current liabilities and finance authorized
purchase commitments. Cash and Other Monetary Assets primarily include non-appropriated funding
sources from donations and undeposited collections.

F. Accounts Receivable, Net
Accounts Receivable consists of amounts due from governmental agencies, private organizations, and
individuals. NSF establishes an allowance for loss on accounts receivable from non-federal sources that
are deemed uncollectible, but regards amounts due from other federal agencies as fully collectible. NSF
analyzes each account independently to assess collectability and the need for an offsetting allowance or
write-off. NSF writes off delinquent debt from non-federal sources that is more than two years old.

G. Advances
Advances consist of advances to grantees, contractors, and federal agencies. Advance payments are made
to grant recipients so that recipients may incur expenditures related to the approved grant. Payments are
only made within the amount of the recorded grant obligation and are intended to cover immediate cash
needs. Advances to contractors are payments made in advance of incurring expenditures. Advances to
federal agencies are only issued when agencies are operating under working capital funds and are unable
to incur costs on a reimbursable basis. Advances are reduced when documentation supporting
expenditures is received and recorded.

H. General Property, Plant and Equipment (PP&E)
NSF capitalizes PP&E with costs exceeding $25 and useful lives of two or more years; those not meeting
these criteria are recorded as operating expenses. NSF currently reports capitalized PP&E at original
acquisition cost; assets acquired from the General Services Administration (GSA) excess property
schedules are recorded at the value assigned by the donating agency; assets transferred in from other
agencies are at the cost recorded by the transferring entity for the asset net of accumulated depreciation or
amortization.


                                                    II-20 

                                                               Notes to the Principal Financial Statements
                                              September 30, 2008 and 2007 (Dollar Amounts in Thousands)


The PP&E balance consists of Equipment, Aircraft and Satellites, Buildings and Structures, Leasehold
Improvements, and Construction in Progress. These balances are comprised of PP&E maintained “in-
house” by NSF to support operations and PP&E under the U.S. Antarctic Program (USAP). The majority
of USAP property is currently under the custodial responsibility of the prime NSF contractor for the
program.

Costs incurred to construct buildings and structures are accumulated and tracked as construction in
progress. At 75% completion of construction, an on-site Conditional Occupancy inspection is performed
to inspect for compliance to the approved plans, design, specifications, and changes. Items that pertain to
the safety and health of any future occupants of the facility must be corrected before a Conditional
Occupancy is granted and the facility occupied. When Conditional Occupancy is granted, the completed
project is transferred from construction in progress to real property and depreciated over the respective
useful life of the asset.

Depreciation expense is calculated using the straight line half year convention. The economic useful life
classifications for capitalized assets are as follows:

        Equipment
           5 years         computers and peripheral equipment, fuel storage tanks, laboratory
                           equipment, and vehicles

            7 years        communications equipment 

            10 or 15 years generators, Department of Defense equipment 

            20 years       movable buildings (e.g. trailers) 


        Aircraft and Satellites

            7 years          aircraft, aircraft conversions, and satellites 


        Buildings and Structures
            31.5 years      buildings and structures placed in service prior to 1994
            39 years        buildings and structures placed in service after 1993

        Leasehold Improvements
           The cost of leasehold improvements performed by GSA is financed with NSF appropriated
           funds. Amortization is calculated using the straight line half year convention upon transfer
           from construction in progress. In fiscal year 2008, leasehold improvements completed during
           the year were amortized over 5 years, the remaining years on NSF's lease with GSA.

            Office Space: The NSF Headquarter buildings are leased through the GSA under an
            occupancy agreement. The cancellation clause within the agreement allows NSF to terminate
            use with a 120 day notice. NSF is billed by GSA for the leased space as rent based upon
            estimated lease payments made by GSA plus an administrative fee. Therefore, the cost of the
            Headquarter buildings is not capitalized by NSF.

        Internal Use Software
            NSF controls, values, and reports purchased or developed software as tangible property
            assets, in accordance with the Statement of Federal Financial Accounting Standards (SFFAS)
            No. 10 – "Accounting for Internal Use Software." NSF identifies software investments as
            accountable property for items that, in the aggregate, cost $500 or more to purchase, develop,
            enhance, or modify a new or existing NSF system. Software projects that are not completed at



                                                      II-21 

                                                             Notes to the Principal Financial Statements
                                            September 30, 2008 and 2007 (Dollar Amounts in Thousands)

            year-end and are expected to exceed the capitalization threshold are recorded as software in
            development. All internal use software meeting the capitalization threshold is amortized over
            a five-year period using the straight line half year convention.

Assets Owned by NSF in the Custody of Other Entities: NSF awards grants, cooperative agreements, and
contracts to various organizations, including colleges and universities, non-profit organizations, state and
local governments, Federally Funded Research and Development Centers (FFRDCs), and private entities.
The funds provided may be used in certain cases to purchase or construct PP&E to be used for operations
or research on projects or programs sponsored by NSF. In these instances, NSF funds the acquisition of
property, but transfers control of the assets to these entities. NSF’s authorizing legislation specifically
prohibits the Foundation from operating such property directly.

In practice, NSF’s ownership interest in such PP&E is similar to a reversionary interest. To address the
accounting and reporting of these assets, specific guidance was sought by NSF and provided by the
Federal Accounting Standards Advisory Board (FASAB). This guidance stipulates that NSF should: (i)
disclose the value of such PP&E held by others in its financial statements based on information contained
in the audited financial statements of these entities (if available); and (ii) report information on costs
incurred to acquire the research facilities, equipment, and platforms in the Research and Human Capital
Activity costs as required by the SFFAS No. 8, "Supplementary Stewardship Reporting." Very few
entities disclose information on NSF titled property in their audited financial statements. Therefore, NSF
has elected to disclose only the number of entities in possession of NSF owned property. Entities that
separately present the book value of NSF titled property in their audited financial statements and all
FFRDCs are listed in Note 5 along with the book value of the property held.

I. Advances From Others
Advances From Others consist of amounts obligated and advanced by other federal entities to NSF for
grant administration and other services to be furnished under reimbursable agreements. Balances at the
end of the year are adjusted by an allocated amount from the fourth quarter grantee expenditure estimate
described under Note 1K, Accrued Liabilities - Grants. The amount to be allocated by Trading Partner is
based on a percentage of reimbursable grant expenditures to total grant expenditures.

J. Accounts Payable
Accounts Payable consist of liabilities to federal agencies, commercial vendors, contractors, and
disbursements in transit. Accounts payable to federal agencies, commercial vendors, and contractors are
expenses for goods and services received but not yet paid by NSF at the end of the fiscal year. At year-
end, NSF accrues for the amount of estimated unpaid expenditures to commercial vendors for which
invoices have not been received, but goods and services have been delivered and rendered. Accounts
payable also consist of disbursements in transit recorded by NSF but not paid by Treasury.

K. Accrued Liabilities – Grants
The total grant liabilities for the year are determined based on an estimate of prior quarter expenditures
incurred and cash on hand held by the grantees. The majority of NSF’s grantees are reimbursed for
incurred costs, but due to the timing of the receipt of expenditure reports, grantees draw down funds prior
to the recognition of the reimbursement for incurred costs. This timing constraint causes funding to
grantees to be recorded as advances. The grant accrual calculation is based on historical trend analyses
prepared by NSF. NSF uses a methodology to track the spending patterns by fiscal year and quarter for
each of its fund groups. NSF determined that each appropriation and the year of the appropriation have a
noted spending pattern. Based on historical information, NSF applies an average percentage rate to the
current year grant related obligations for each individual appropriation within a fund group. The
calculation provides NSF with the accrued expenditure.



                                                   II-22 

                                                              Notes to the Principal Financial Statements
                                             September 30, 2008 and 2007 (Dollar Amounts in Thousands)

NSF estimates the ending cash on hand balance in total for its grantees after the accrued grant
expenditures have been determined. Based on an average of six years of historical cash on hand data, NSF
applies the negative cash on hand rate to the estimated ending cash on hand to determine the amount to
record as a liability. The difference between the total expenditure amount accrued and the liability
recorded is used to reduce the advance.

L. Accrued Liabilities - Contracts, Payroll, and Other
Accrued Liabilities - Contracts, Payroll, and Other consist of contract accruals, accrued payroll, and
benefits. The total contracts liabilities for the year are determined based on an estimate of prior quarter
expenditures incurred by the three contractors that are funded on an advance basis. Expenditures are
estimated for each contractor by computing an average of the previous four quarters of actual
expenditures reported. The accrual increases expenditures and decreases the advance account. If the
estimated accrual amount exceeds total advances, an accrued liability is recorded for the excess. NSF’s
payroll services are provided by the National Business Center under the Department of the Interior.
Accrued payroll and benefits relate to services rendered by NSF employees but not yet paid. At year-end,
NSF accrues the amount of wages and benefits earned, but not yet paid.

Annual leave is accrued as it is earned, and the accrual is reduced as leave is taken. Each year, the balance
in the accrued annual leave account is adjusted to reflect changes. To the extent current and prior-year
appropriations are not available to fund annual leave earned but not taken, funding will be obtained from
future Agency Operations and Award Management appropriations. Sick leave and other types of non-
vested leave are expensed as taken.

M. Employee Benefits
A liability is recorded for estimated and actual future payments to be made for workers' compensation
pursuant to the Federal Employees' Compensation Act (FECA). The liability consists of the net present
value of estimated future payments calculated by the U.S. Department of Labor (DOL) and the actual
unreimbursed cost paid by DOL for compensation paid to recipients under FECA. The actual costs
incurred are reflected as a liability because NSF will reimburse DOL two years after the actual payment
of expenses. Future NSF Agency Operations and Award Management appropriations will be used for
DOL's estimated reimbursement.

N. Net Position
Net position is the residual difference between assets and liabilities and is composed of unexpended
appropriations and cumulative results of operations. Unexpended appropriations represent the amount of
undelivered orders and unobligated balances of budget authority. Unobligated balances are the amount of
appropriations or other authority remaining after deducting the cumulative obligations from the amount
available for obligation. The cumulative results of operations is the net result of NSF’s operations since
inception.

O. Retirement Plan
In fiscal year 2008, approximately 19 percent of NSF employees participated in the Civil Service
Retirement System (CSRS), to which NSF matches contributions equal to 7 percent of pay. The majority
of NSF employees are covered by the Federal Employees Retirement System (FERS) and Social Security.
A primary feature of FERS is a thrift savings plan to which NSF automatically contributes 1 percent of
pay and matches employee contributions up to an additional 4 percent of pay. NSF also contributes the
employer's matching share for Social Security for FERS participants.

Although NSF funds a portion of the benefits under FERS and CSRS relating to its employees and
withholds the necessary payroll deductions, the Foundation has no liability for future payments to
employees under these plans, nor does NSF report CSRS, FERS, Social Security assets, or accumulated


                                                    II-23 

                                                             Notes to the Principal Financial Statements
                                            September 30, 2008 and 2007 (Dollar Amounts in Thousands)

plan benefits, on its financial statements. Reporting such amounts is the responsibility of the Office of
Personnel Management (OPM) and The Federal Retirement Thrift Investment Board.

SFFAS No. 5, "Accounting for Liabilities of the Federal Government," requires employing agencies to
recognize the cost of pensions and other retirement benefits during their employees' active years of
service. OPM actuaries determine pension cost factors by calculating the value of pension benefits
expected to be paid in the future, and provide these factors to the agency for current period expense
reporting. Information is also provided by OPM regarding the full cost of health and life insurance
benefits on the OPM Benefit Administration Website: http://www.opm.gov/asd/pdf/2008/08-304.pdf.

P. Contingencies and Possible Future Costs
Contingencies - Claims and Lawsuits: NSF is a party to various legal actions and claims brought against
it. In the opinion of NSF management and legal counsel, the ultimate resolution of the actions and claims
will not materially affect the financial position or operations of the Foundation. NSF recognizes the
contingency in the financial statements when claims are expected to result in a material loss (and the
payment amounts can be reasonably estimated) whether from NSF's appropriations or the "Judgment
Fund" administered by the Department of Justice under Section 1304 of Title 31 of the United States
Code.

Claims and lawsuits have also been made and filed against awardees of the Foundation by third parties.
NSF is not a party to these actions and NSF believes there is no possibility that NSF will be legally
required to satisfy such claims. Judgments or settlements of the claims against awardees that impose
financial obligation on them may be claimed as costs under the applicable contract, grant, or cooperative
agreement and thus may affect the allocation of program funds in future fiscal years. In the event that the
claim becomes probable and amounts can be reasonably estimated, the claim will be recognized.

Contingencies – Unasserted Claims: For claims and lawsuits that have not been made and filed against
the Foundation, NSF management and legal counsel determine, in their opinion, whether resolution of the
actions and claims it is aware of will materially affect the Foundation’s financial position or operations.
NSF recognizes a contingency in the financial statements when unasserted claims are probable of
assertion, and if asserted, would be probable of an unfavorable outcome, and expected to result in a
measurable loss, whether from NSF’s appropriations or the "Judgment Fund." NSF discloses unasserted
claims if materiality or measurability of a potential loss cannot be determined or the loss is more likely
than not to occur rather than probable.

Termination Claims: NSF engages organizations in cooperative agreements and contracts to manage,
operate, and maintain research facilities for the benefit of the scientific community. As part of these
agreements and contracts, NSF funds on a pay-as-you-go basis certain employee benefit costs (accrued
vacation and other employee related liabilities, severance pay and medical insurance), long term leases
and vessel usage.

Environmental Liabilities: NSF manages the U.S. Antarctic Program. The Antarctic Conservation Act
and its implementing regulations identify the requirements for environmental clean-up in Antarctica. NSF
continually monitors the U.S. Antarctic Program in regards to environmental issues. NSF establishes its
environmental liability estimates in accordance with the requirements of the SFFAS No. 5, “Accounting
for Liabilities of the Federal Government,” and as amended by SFFAS No. 12, “Recognition of
Contingent Liabilities Arising from Litigation,” and the Federal Financial Accounting and Auditing
Technical Release No. 2, “Determining Probable and Reasonably Estimable for Environmental Liabilities
in the Federal Government.”




                                                   II-24 

                                                               Notes to the Principal Financial Statements
                                              September 30, 2008 and 2007 (Dollar Amounts in Thousands)

Q. Use of Estimates
Management has made certain estimates and assumptions when reporting assets, liabilities, revenues, and
expenses, and also in the note disclosures. Estimates underlying the accompanying financial statements
include accounting for grants; contracts; accounts payable; payroll; and property, plant and equipment.
Actual results may differ from these estimates, and the difference will be adjusted for and included in the
financial statements of the following fiscal year.

Note 2. Fund Balance With Treasury

Fund Balance With Treasury consisted of the following components as of September 30, 2008 and 2007:

(Amounts in Thousands)                                                        2008
                                                  Appropriated       Donated         Earmarked
                                                     Funds            Funds            Funds           Total
Obligated                                       $   8,104,439 $         37,853 $        317,220 $     8,459,512
Unobligated Available                                  66,934           44,028           46,964         157,926
Unobligated Unavailable                                81,779                -            3,865          85,644
Less: Budgetary Non-FBWT                                     -         (30,410)               -         (30,410)
Total FBWT                                      $   8,253,152 $         51,471 $        368,049 $     8,672,672

(Amounts in Thousands)                                                       2007
                                                  Appropriated       Donated         Earmarked
                                                     Funds            Funds            Funds           Total
Obligated                                       $   7,809,538 $         24,271 $        273,924 $     8,107,733
Unobligated Available                                  50,894           31,369           59,446         141,709
Unobligated Unavailable                                73,034               10            3,924          76,968
Less: Budgetary Non-FBWT                                     -         (16,228)               -         (16,228)
Total FBWT                                      $   7,933,466 $         39,422 $        337,294 $     8,310,182



The Donations Account includes amounts donated to NSF from all sources. Funds in the Donations
Account may be used in furtherance of one or more of the general purposes of the Foundation. The
donated funds are held as Fund Balance With Treasury (FBWT) or as non-FBWT with budgetary
resources which represent cash held outside of Treasury at commercial banks in interest bearing accounts.
These funds are collateralized up to $33,200 by the bank through the Federal Reserve Bank of St. Louis in
accordance with Treasury Financial Manual Volume 1, Chapter 6-9000. Unobligated Unavailable
balances include recoveries of prior year obligations and other unobligated expired funds that are
unavailable for new obligations.

In fiscal year 1999, in accordance with P.L. 105-277, a special fund named H-1B Nonimmigrant
Petitioner Fees Account was established in the general fund of the U.S. Treasury. These funds are
considered Earmarked Funds and are not included in Appropriated Funds. The funds represent fees
collected for each petition for nonimmigrant status. Under the law, NSF was prescribed a percentage of
these fees for specific programs.




                                                      II-25 

                                                               Notes to the Principal Financial Statements
                                              September 30, 2008 and 2007 (Dollar Amounts in Thousands)

Note 3. Advances

Intragovernmental
As of September 30, 2008 and 2007, Intragovernmental Advances were $15,284 and $35,255 respectively.

Public
(Amounts in Thousands)                                                                 2008             2007

Advances to Grantees                                                            $        54,549 $         68,578
Advances to Contractors                                                                       -           10,748
Total Advances to the Public                                                    $        54,549 $         79,326



Note 4. General Property, Plant and Equipment, Net

The components of General Property, Plant and Equipment as of September 30, 2008 and 2007 were:

(Amounts in Thousands)                                                                2008



                                                                  Acquisition  Accumulated             Net Book
                                                                     Cost      Depreciation             Value
Equipment                                                       $    117,839 $     (94,592) $             23,247
Aircraft and Satellites                                              138,487      (135,287)                3,200
Buildings and Structures                                             274,776       (76,848)              197,928
Leasehold Improvements                                                 6,490        (2,580)                3,910
Construction in Progress                                              26,167              -               26,167
Internal Use Software                                                  7,091        (6,447)                  644
Software in Development                                               14,698              -               14,698
Total PP&E                                                      $    585,548 $    (315,754) $            269,794

(Amounts in Thousands)                                                                2007



                                                                    Acquisition  Accumulated           Net Book
                                                                      Cost       Depreciation           Value
Equipment                                                       $      108,239 $     (90,329) $           17,910
Aircraft and Satellites                                                138,487      (128,886)              9,601
Buildings and Structures                                               240,165       (67,208)            172,957
Leasehold Improvements                                                   4,688        (1,591)              3,097
Construction in Progress                                                52,043              -             52,043
Internal Use Software                                                    7,879        (6,344)              1,535
Software in Development                                                  3,064              -              3,064
Total PP&E                                                      $      554,565 $    (294,358) $          260,207



Note 5. Property, Plant and Equipment in the Custody of Other Entities
As explained in Note 1H, in the Assets Owned by NSF in the Custody of Other Entities section, NSF
received a ruling from FASAB on accounting for PP&E owned by NSF but in the custody of and used by


                                                     II-26 

                                                                 Notes to the Principal Financial Statements
                                                September 30, 2008 and 2007 (Dollar Amounts in Thousands)

others. The FASAB guidance requires PP&E in the custody of others be excluded from NSF PP&E as
defined in the SFFAS No. 6 "Accounting for Property, Plant and Equipment." NSF is required to disclose
the dollar amount of NSF PP&E held by others in the footnotes based on information contained in the
most recently issued audited financial statements of the organization holding the assets.

At September 30, 2008 there were 33 colleges or universities, and 32 commercial entities that held
property titled to NSF. None of the colleges or universities reported NSF titled property separately;
however, one commercial entity, UNAVCO Inc., reported NSF titled property with a net book value of
$18,786.

The amount of PP&E owned by NSF but in the custody of a Federally Funded Research and
Development Center (FFRDC) is identified in the table below. In some cases, FFRDCs operate on a fiscal
year-end basis other than September 30. If NSF PP&E is not separately stated on the FFRDCs audited
financial statements or the FFRDC is not audited, the related amounts are annotated as Not Available
(N/A) in the table.

(Amounts in Thousands)

                                                                                                 Fiscal Year
Federally Funded Research and Development Centers                                  Amount          Ending

National Astronomy & Ionosphere Center (Cornell) - NAIC                       $     N/A             6/30
University Corporation for Atmospheric Research - UCAR                            168,550           9/30
Association of Universities for Research in Astronomy, Inc. - AURA                465,584           9/30
National Radio Astronomy Observatory - AUI                                          N/A             9/30



Note 6. Estimated Clean-Up Cost Liability

Antarctic
NSF is not legally liable for environmental clean-up costs in the Antarctic. Article 16 to the Protocol on
Environmental Protection to the Antarctic Treaty (1991) requires that the Treaty Parties "undertake to
elaborate rules and procedures relating to liability for damage arising from activities taking place in the
Antarctic Treaty area. . ." Negotiations relating to the terms of the Liability Annex were concluded and
the terms of the Annex finalized in 2005. The liability contemplated by the Annex is narrow: it is only
prospective in its focus and generally imposes liability only when an operator fails to take response action
to an environmental emergency. Regardless, as the Annex cannot enter into force until all 28 Antarctic
Treaty Consultative Parties have ratified its provisions (which typically requires the enactment of national
laws by each Consultative Party), no legal liability for environmental clean up costs will arise for NSF for
many years to come.

There are occasions when the NSF Office of Polar Programs (OPP) chooses to accept responsibility and
commit funds toward clean-up efforts of various sites as resources permit. Those decisions are in no way
driven by concerns of probable legal liability for failure to engage in such efforts, but rather, a
commitment to environmental stewardship of Antarctic natural resources. For those projects/incidents that
OPP decides it may fund and that cannot be accomplished within allocated operations and maintenance
funding, the support contractor is directed to develop a preliminary estimate. Final estimates, and
approval to proceed, will depend on an assessment of risk to the environment, availability of personnel,
and accessibility to a site in any given year.




                                                       II-27 

                                                              Notes to the Principal Financial Statements
                                             September 30, 2008 and 2007 (Dollar Amounts in Thousands)

Environmental clean-up projects started and completed during the year are reflected in NSF's financial
statements as expenses for the current fiscal year. However, for approved projects that are anticipated to
be performed after the fiscal year-end or will take more than one fiscal year to complete, an estimated
cost is accrued in NSF's financial statements. At September 30, 2008 and 2007, no funds have been
accrued for multi-year environmental clean-up projects in the Antarctic.

Other
NSF is continuing its actions to assess the condition of the Columbia Scientific Balloon Facility (CSBF)
site before completing a no-cost transfer through the GSA to the National Aeronautics and Space
Administration (NASA). NASA engineers reported ten wells on the CSBF site and are aware of one
contaminated well from battery disposal. Future outflow is probable, however predicting the cost for
remediation of unknown contaminants is uncertain. NSF has paid and transferred funds to NASA for
completion of Phase I and II of the Environmental Due Diligence Audit (EDDA) for the CSBF
environmental assessment. A final Affected Property Assessment Report (APAR) was delivered in
February 2008 to the Texas Commission on Environmental Quality (TCEQ). The TCEQ has requested
additional testing of a new monitoring well for sampling over a six month period.

NSF estimates, in consultation with the Office of General Counsel, that the clean-up costs will range
between $50 and $200, the lower of which is reflected on the balance sheet as Other Intragovernmental
Liabilities. This estimate is based upon the potential need for additional activities associated with the
Phase II Sampling and Analysis and testing of an additional monitoring well.

Note 7. Leases
NSF leases its Headquarter buildings under an operating lease with the GSA. The following is a schedule
of future minimum rental payments for the Headquarter buildings.

(Amounts in Thousands)

                                                                             Operating Lease
                         Fiscal Year                                            Amount
              2009                                                         $        20,604
              2010                                                                  20,302
              2011                                                                  20,591
              2012                                                                  20,911
              2013                                                                  19,882
              2014                                                                   4,581
              Total Minimum Lease Payments                                 $      106,871

In addition to the headquarter buildings, NSF occupies common spaces with other federal agencies
overseas through the State Department’s International Cooperative Administrative Support Services
(ICASS) system. NSF utilizes ICASS in Beijing, Paris, and Tokyo for residential and non-residential
space. ICASS is a voluntary cost distribution system and the agreement to receive ICASS services is
through an annual Memorandum of Understanding (MOU) between the NSF and the State Department.
Additionally, NSF occupies residential space in Tokyo and office space in Denver, Colorado. The
agreement to occupy space in Denver, Colorado is an annual MOU with the Department of Commerce
and the lease to occupy residential space in Tokyo is a cancellable agreement between the United States
Government and the lessor. All NSF leases are cancellable and/or for a period not more than a year.




                                                   II-28 

                                                             Notes to the Principal Financial Statements
                                            September 30, 2008 and 2007 (Dollar Amounts in Thousands)

Note 8. Commitments and Contingencies
Cost Incurred Audits: A large NSF contractor provides maintenance and operations services to the United
States Antarctic Program. Cost incurred audits have been completed on the contractor for fiscal years
2000 to 2004. Of the amount originally questioned, $29,000 remains unresolved. A corresponding
receivable is not reflected in the balance sheet due to the uncertainty of NSF recovering any of these
questioned costs.

Claims: Contractor claims for additional compensation under a contract awarded by the United States Air
Force (USAF) for the reconfiguration of three NSF owned LC130 aircrafts, were paid by the Treasury
Judgment Fund for $3,000 and are reflected on the Other Intragovernmental Liabilities line of the balance
sheet. In a good faith effort to make the Treasury Judgment Fund whole, NSF submitted a request for
funds in its fiscal year 2007 budget submission in order to reimburse the Treasury Judgment Fund.
However, neither the year-long continuing resolution of fiscal year 2007, nor the appropriations bill of
fiscal year 2008 provided those funds. NSF continues to maintain that USAF should be the responsible
party, and is seeking a decision from the Department of Justice Office of Legal Counsel to that effect.

FFRDC Termination Claims: NSF provides financial assistance for the operation and maintenance of four
FFRDCs by cooperative agreement. These agreements include a clause that commits NSF to seek
appropriations for termination expenses, if necessary, in the event an agreement is not renewed or is
terminated.

NSF is obligated to pay termination expenses in excess of the limitation of funds set forth in the
agreements, including any Post Retirement Benefit liabilities, only if funds are appropriated for this
specific purpose. Nothing in these agreements can be construed as implying that Congress will
appropriate funds to meet the terms of any claims. Although one FFRDC operator has identified these
payments as a current obligation of NSF, the termination clause of the agreement clearly states that any
obligation for these expenses exists only upon termination of the agreement and is limited to the lesser of
available appropriations or $25,000.

NSF considers non-renewal or termination of these cooperative agreements only remotely possible.
Termination costs that may be payable to an FFRDC operator cannot be estimated until such time as the
cooperative agreement is terminated.

Note 9. Earmarked Funds
In fiscal year 1999, Title IV of the American Competitiveness and Workforce Improvement Act of 1998
(P.L. 105-277) established an H-1B Nonimmigrant petitioner account in the General Fund of the U.S.
Treasury. Funding is established from fees collected for alien, nonimmigrant status petitions. This law
requires that a prescribed percentage of the funds in the account be made available to NSF for the
following activities:
         • Computer Science, Engineering, and Mathematics Scholarship (CSEMS)
         • Grants for Mathematics, Engineering, or Science Enrichment Courses
         • Systemic Reform Activities

The H-1B Nonimmigrant Petitioner fees are available to the Director of NSF until expended. The funds
may be used for scholarships to low income students, or to carry out a direct or matching grant program to
support private and/or public partnerships in K-12 education. The H-1B Fund is set up as a permanent,
indefinite appropriation by NSF. These funds are included in the President’s budget. The earmarked funds
are accounted for in its own Treasury Account Fund Symbol (TAFS) and the budgetary resources for the
earmarked fund are recorded as Appropriated Earmarked Receipts Transferred In, and reported according
to the guidance for earmarked funds in SFFAS No. 27, "Identifying and Reporting Earmarked Funds."



                                                   II-29 

                                                                  Notes to the Principal Financial Statements
                                                 September 30, 2008 and 2007 (Dollar Amounts in Thousands)


                                                                                     2008            2007
                                                                                   Earmarked       Earmarked
(Amounts in Thousands)                                                               Funds           Funds

Balance Sheet as of September 30, 2008 and 2007

Fund Balance with Treasury                                                     $       368,049 $     337,294
Advances                                                                                   631           596
   Total Assets                                                                        368,680       337,890

Other Liabilities                                                                        4,040         3,226
Total Liabilities                                                                        4,040         3,226

Cumulative Results of Operations                                                       364,640       334,664
   Total Liabilities and Net Position                                          $       368,680 $     337,890

Statement of Net Cost for the Years Ended September 30, 2008 and 2007

Program Costs                                                                  $        74,454 $      51,977
Less: Earned Revenues                                                                        -             -
Net Cost of Operations                                                         $        74,454 $      51,977

Statement of Changes in Net Position For the Years Ended September 30, 2008 and 2007

Net Position Beginning of Period                                               $       334,664 $     279,282

Appropriated Earmarked Receipts Transferred In                                         104,430       107,359
Net Cost of Operation                                                                  (74,454)      (51,977)

Change in Net Position                                                                  29,976        55,382

Net Position End of Period                                                     $       364,640 $     334,664



Note 10. Statement of Net Cost
Major Program Descriptions
The Statement of Net Cost presents the NSF-wide expenses incurred by the Foundation. The presentation
of the NSF’s net cost by strategic goal is included in this note. The Statement of Net Cost reflects the
Foundation’s strategic framework set forth in NSF’s strategic plan, “Investing in America’s Future:
Strategic Plan FY 2006-2011.”

The strategic goals outlined are: Discovery, Learning, and Research Infrastructure. NSF’s fourth strategic
goal, Stewardship, focuses on NSF’s administrative and management activities. In pursuit of its mission,
NSF makes investments in Discovery, Learning, and Research Infrastructure. These goals reflect
outcomes at the heart of the research enterprise: fostering research that will advance the frontiers of
knowledge (Discovery); cultivating a world-class, broadly inclusive science and engineering workforce
and expanding the scientific literacy of all citizens (Learning); and building the nation's research
capability through critical investments in advanced instrumentation, facilities, cyberinfrastructure, and
experimental tools (Research Infrastructure).




                                                       II-30 

                                                            Notes to the Principal Financial Statements
                                           September 30, 2008 and 2007 (Dollar Amounts in Thousands)

Net costs are presented for the three primary appropriations that fund NSF’s programmatic activities
(Research and Related Activities, Education and Human Resources, and Major Research Equipment and
Facilities Construction) and for donations and earmarked funds that are classified in the Statement of Net
Cost and its related footnote as “Costs Not Assigned To Other Programs”. Stewardship costs are prorated
among them. Stewardship costs include expenditures incurred from the Agency Operations and Award
Management (AOAM), National Science Board (NSB), and Office of Inspector General (OIG)
appropriations. These appropriations support salaries and benefits of persons employed at NSF; general
operating expenses, including support of NSF’s information systems technology; staff training, audit, and
OIG activities; and Office of Personnel Management (OPM) and Department of Labor (DOL) benefits
costs paid on behalf of NSF.

At September 30, 2008 and 2007, approximately 95 percent of NSF's expenses were directly related to the
Discovery, Learning, and Research Infrastructure strategic outcome goals. Net costs for each strategic
goal is determined by allocating total costs by the percentage for which obligations for each strategic
outcome goal accounted for total obligations in the current year. All NSF earmarked funds are allocated
to the Learning strategic goal. The remaining portion of NSF’s expenses relate to the Stewardship
strategic goal.

At September 30, 2008 and 2007, costs related to the Stewardship activities totaled $283,245 and
$275,993, respectively. All Stewardship costs are prorated to the other three strategic goals based on the
percentage that each Strategic Goal's expenditures account for the total expenditures of appropriated,
trust, and earmarked funds.

In accordance with OMB Circular A-136, costs incurred for services provided by other federal entities are
reported in the full costs of NSF programs and are identified as "federal." All earned revenues are
offsetting collections provided through reimbursable agreements with other federal entities and are
retained by NSF. Earned revenues are recognized when the related program or administrative expenses
are incurred and are deducted from the full cost of the programs to arrive at the net cost of operating
NSF's programs. NSF applies a cost recovery fee on other federal entities consistent with applicable
legislation and Government Accountability Office decisions. NSF recovers the costs incurred in the
management, administration, and oversight of activities authorized and/or funded by interagency
agreements where NSF is the performing agency.




                                                  II-31 

                                                                Notes to the Principal Financial Statements
                                               September 30, 2008 and 2007 (Dollar Amounts in Thousands)

Intragovernmental and Public Costs and Earned Revenue by Strategic Goal

                                                                                   2008
(Amounts in Thousands)                                               Federal       Public         Total

Research and Related Activities
    Discovery                                                    $    155,978     2,621,404      2,777,382
    Learning                                                           40,162       674,975        715,137
    Research Infrastructure                                            75,410     1,267,347      1,342,757
Total Research and Related Activities                                 271,550     4,563,726      4,835,276
    Less: Earned Revenue                                              (99,471)            -        (99,471)
Net Research and Related Activities                                   172,079     4,563,726      4,735,805

Education and Human Resources
    Discovery                                                    $       2,942      496,850       499,792
    Learning                                                               758      127,932       128,690
    Research Infrastructure                                              1,422      240,207       241,629
Total Education and Human Resources                                      5,122      864,989       870,111
    Less: Earned Revenue                                                (8,914)           -        (8,914)
Net Education and Human Resources                                       (3,792)     864,989       861,197

Major Research Equipment and Facilities Construction
    Discovery                                                    $      4,350       129,002       133,352
    Learning                                                            1,120        33,216        34,336
    Research Infrastructure                                             2,103        62,367        64,470
Total Major Research Equipment and Facilities Construction              7,573       224,585       232,158
    Less: Earned Revenue                                                    -             -             -
Net Major Research Equipment and Facilities Construction                7,573       224,585       232,158

Costs Not Assigned To Other Programs
    Learning                                                     $        542        76,863        77,405
    Research Infrastructure                                                 -        38,242        38,242
Total Costs Not Assigned To Other Programs                                542       115,105       115,647
    Less: Earned Revenue                                                    -             -             -
Net Costs Not Assigned To Other Programs                                  542       115,105       115,647

Net Cost of Operations                                           $    176,402     5,768,405      5,944,807




                                                       II-32 

                                                                Notes to the Principal Financial Statements
                                               September 30, 2008 and 2007 (Dollar Amounts in Thousands)

                                                                                    2007
(Amounts in Thousands)                                               Federal        Public          Total

Research and Related Activities
    Discovery                                                    $    115,522      2,478,343       2,593,865
    Learning                                                           28,328        607,741         636,069
    Research Infrastructure                                            56,918      1,221,081       1,277,999
Total Research and Related Activities                                 200,768      4,307,165       4,507,933
    Less: Earned Revenue                                              (68,500)             -         (68,500)
Net Research and Related Activities                                   132,268      4,307,165       4,439,433

Education and Human Resources
    Discovery                                                    $       2,828       517,611         520,439
    Learning                                                               694       126,929         127,623
    Research Infrastructure                                              1,393       255,027         256,420
Total Education and Human Resources                                      4,915       899,567         904,482
    Less: Earned Revenue                                                (8,270)            -          (8,270)
Net Education and Human Resources                                       (3,355)      899,567         896,212

Major Research Equipment and Facilities Construction
    Discovery                                                    $      8,775        119,496         128,271
    Learning                                                            2,152         29,303          31,455
    Research Infrastructure                                             4,324         58,876          63,200
Total Major Research Equipment and Facilities Construction             15,251        207,675         222,926
    Less: Earned Revenue                                                    -              -               -
Net Major Research Equipment and Facilities Construction               15,251        207,675         222,926

Costs Not Assigned To Other Programs
    Learning                                                     $          -         54,120          54,120
    Research Infrastructure                                               516         22,922          23,438
Total Costs Not Assigned To Other Programs                                516         77,042          77,558
    Less: Earned Revenue                                                    -              -               -
Net Costs Not Assigned To Other Programs                                  516         77,042          77,558

Net Cost of Operations                                           $    144,680      5,491,449       5,636,129



Note 11. Permanent Indefinite Appropriations
NSF maintains permanent indefinite appropriations for Research and Related Activities (R&RA) and
Major Research Equipment and Facilities Construction (MREFC).

The R&RA appropriation is used for polar research and operations support and for reimbursement to
other federal agencies for operational and science support and logistical and other related activities for the
United States Antarctic program. In fiscal years 2008 and 2007, the permanent indefinite appropriations
for R&RA were $444,010 and $439,550, respectively, and are reported as current year transfers from the
annual R&RA appropriation.

The MREFC appropriation supports the construction and procurement of unique national research
platforms and major research equipment. In fiscal years 2008 and 2007, the permanent indefinite
appropriations for MREFC were $220,740 and $190,881, respectively.


                                                       II-33 

                                                             Notes to the Principal Financial Statements
                                            September 30, 2008 and 2007 (Dollar Amounts in Thousands)


Note 12. Apportionment Categories of Obligations Incurred: Direct vs. Reimbursable
         Obligations
OMB Circular No. A-11, "Preparation, Submission, and Execution of the Budget," requires direct and
reimbursable obligations be reported as Category A, Category B, or Exempt from Apportionment. In
fiscal years 2008 and 2007, NSF’s SF-132, "Apportionment and Reapportionment Schedule," apportions
all obligations incurred under Category B which is by activity, project, or object. In fiscal years 2008 and
2007, direct obligations amounted to $6,259,622 and $6,063,147, respectively, and reimbursable
obligations amounted to $102,305 and $106,044, respectively.


Note 13. Explanation of Differences between the Statement of Budgetary Resources and the
         Budget of the United States Government
SFFAS No. 7, "Accounting for Revenue and Other Financing Sources and Concepts for Reconciling
Budgetary and Financial Accounting," calls for explanations of material differences between amounts
reported in the Statement of Budgetary Resources (SBR) and the actual balances published in the Budget
of the United States Government (President’s Budget). However, the President’s Budget that will include
fiscal year 2008 actual budgetary execution information has not yet been published. The President’s
Budget is scheduled for publication in the spring of fiscal year 2009 and can be found on the OMB web
site: http://www.whitehouse.gov/omb.

Balances reported in the fiscal year 2007 SBR and the related President’s Budget are shown in a table
below for Budgetary Resources, Obligations Incurred, Unobligated Balance - Unavailable, and any
related differences. The differences reported are due to differing reporting requirements for expired and
unexpired appropriations between the Treasury guidance used to prepare the SBR and the OMB guidance
used to prepare the President’s Budget. The SBR includes both unexpired and expired appropriations,
while the President’s Budget discloses only unexpired budgetary resources that are available for new
obligations.

(Amounts in Thousands)                                                       2007
                                                                 Budgetary          Obligations  Unobligated
                                                                 Resources           Incurred     Balance -
                                                                                                 Unavailable
Combined Statement of Budgetary Resources                    $    6,387,868 $        6,169,191 $     76,968

Budget of the U.S. Government                                $    6,312,053 $        6,164,368 $       5,976

Difference                                                   $       75,815 $             4,823 $     70,992



Note 14. Undelivered Orders at the end of the Period
In accordance with SFFAS No. 7, "Accounting for Revenue and Other Financing Sources," the amount of
budgetary resources obligated for undelivered orders for the periods ended September 30, 2008 and 2007,
amounted to $8,120,099 and $7,870,354, respectively.




                                                   II-34 

                                                                Notes to the Principal Financial Statements
                                               September 30, 2008 and 2007 (Dollar Amounts in Thousands)

Note 15. Reconciliation of Net Cost of Operations to Budget

(Amounts in Thousands)                                                           2008             2007
Resources Used To Finance Activities
   Budgetary Resources Obligated
       Obligations Incurred                                                $     6,361,927 $     6,169,191
       Less: Spending Authority from Offsetting Collections and Recoveries        (161,491)       (151,475)
       Obligations Net of Offsetting Collections and Recoveries                  6,200,436       6,017,716
       Less: Offsetting Receipts                                                    (1,038)         (1,535)
       Net Obligations                                                           6,199,398       6,016,181
   Other Resources
       Imputed Financing                                                                9,048        9,336
       Other Resources                                                                   (166)      (1,375)
       Net Other Resources Used to Finance Activities                                   8,882        7,961
Total Resources Used to Finance Activities                                       6,208,280       6,024,142
Resources Used to Finance Items Not Part of the Net Cost of Operations
   Change in Budgetary Resources Obligated for Goods, Services and
       Benefits Ordered but Not Yet Provided                                      (256,022)      (390,902)
   Resources that Fund Expenses Recognized in Prior Periods                           (144)          (280)
   Budgetary Offsetting Collections and Receipts that Do Not Affect
       Net Cost of Operations                                                        1,038           1,535
   Resources that Finance the Acquisition of Assets                                (34,945)        (21,539)
Total Resources Used to Finance Items Not Part of the
    Net Cost of Operations                                                        (290,073)      (411,186)
Total Resources Used to Finance Net Cost of Operations                           5,918,207       5,612,956
Components of the Net Cost of Operations that will not Require or Generate
   Resources in the Current Period
   Components Requiring or Generating Resources in Future Periods
      Other                                                                             1,243            383
   Total Components of Net Cost of Operations that will Require
      or Generate Resources in Future Periods                                           1,243            383
   Components Not Requiring or Generating Resources
      Depreciation and Amortization                                                 25,248         21,478
      Other                                                                            109          1,312
   Total Components of Net Cost of Operations that will not
      Require or Generate Resources                                                 25,357         22,790
Total Components of Net Cost of Operations that Will Not
   Require or Generate Resources in the Current Period                              26,600         23,173
Net Cost of Operations                                                       $   5,944,807 $     5,636,129




                                                       II-35 

                               Required Supplementary Stewardship Information 

                                                 September 30, 2008 and 2007 





Required Supplementary Stewardship Information
                Stewardship Investments 

    For the Years Ended September 30, 2008 and 2007 





                         II-36 

                                                              Required Supplementary Stewardship Information
                                                                                September 30, 2008 and 2007



                                             Stewardship Investments

                                            Research and Human Capital


                                            (Dollar Amounts in Thousands)


Research and Human Capital Activities
                                                   2008           2007          2006          2005          2004
   Basic Research                                4,449,062      4,195,444     3,682,266     3,564,093     3,494,302
   Applied Research                                409,516        432,820       339,757       291,169       209,225
   Education and Training                          911,369        808,642     1,378,472     1,386,952     1,224,058
   Non-Investing Activities                        283,245        275,993       321,085       292,426       268,298
Total Research & Human Capital Activities      $ 6,053,192    $ 5,712,899 $   5,721,580 $   5,534,640 $   5,195,883

Inputs, Outputs and/or Outcomes

Research and Human Capital Activities

   Investments In:
   Universities                                  4,189,050      4,016,101     3,994,682     3,970,851     3,705,751
   Industry                                        251,695        208,696       199,523       223,563       196,260
   Federal Agencies                                256,186        203,759       221,002       143,316       107,212
   Small Business                                  224,793        220,602       218,334       193,199       200,995
   Federally Funded R&D Centers                    229,259        335,731       299,802       278,542       269,968
   Non-Profit Organizations                        444,236        421,775       428,648       418,209       374,838
   Other                                           457,973        306,235       359,589       306,960       340,859
                                               $ 6,053,192    $ 5,712,899 $   5,721,580 $   5,534,640 $   5,195,883

   Support To:
   Scientists                                      512,147        496,431       473,457       454,053       477,970
   Postdoctoral Programs                           164,519        163,896       158,528       162,132       175,680
   Graduate Students                               615,621        585,308       544,513       538,233       546,084
                                               $ 1,292,287    $ 1,245,635 $   1,176,498 $   1,154,418 $   1,199,734

   Outputs & Outcomes:
   Number of:                                       2008          2007         2006          2005           2004
   Awards Actions                                    23,000        23,000       22,000        22,000         23,000
   Senior Researchers                                43,000        41,000       32,000        32,000         31,000
   Other Professionals                               12,000        13,000       11,000        12,000         15,000
   Postdoctoral Associates                            6,000         6,000        5,000         6,000          6,000
   Graduate Students                                 37,000        35,000       26,000        27,000         29,000
   Undergraduate Students                            24,000        23,000       27,000        33,000         35,000
   K-12 Students                                     13,000        11,000        8,000        11,000         14,000
   K-12 Teachers                                     62,000        61,000       59,000        74,000         86,000


NSF's mission is to support basic scientific research and research fundamental to the engineering process
as well as science and engineering education programs. NSF's Stewardship Investments fall principally
into the categories of Research and Human Capital. For expenses incurred under the Research category,
the majority of NSF funding is devoted to basic research, with a relatively small share going to applied
research. This funding supports both the conduct of research and the necessary supporting infrastructure,
including state-of-the-art instrumentation, equipment, computing resources, and multi-user facilities such
as digital libraries, observatories, and research vessels and aircraft. Basic and applied research expenses


                                                       II-37 

                                                         Required Supplementary Stewardship Information
                                                                           September 30, 2008 and 2007


are determined by prorating the program costs of NSF's strategic goals on Research Infrastructure and
Discovery reported on the Statement of Net Cost. The proration uses the basic and applied research
percentages of total estimated research and development obligations reported in the current year Budget
Request to OMB. The actual numbers are not available until later in the following fiscal year. Education
and Training costs equate to NSF's third strategic goal, Learning, and the costs related to Non-Investing
activities reflect the fourth strategic goal, Stewardship.

The data provided for Scientists, Postdoctoral Associates, and Graduate Students are obtained from NSF’s
proposal system and is information reported by each Principal Investigator. The number of award actions
is from NSF’s Enterprise Information System (EIS). The remaining outputs and outcomes are estimates of
the total fiscal year 2008 amounts obtained annually from the NSF Directorates.

NSF's Human Capital investments focus principally on education and training, toward a goal of creating a
diverse, internationally competitive, and globally engaged workforce of scientists, engineers, and well-
prepared citizens. NSF supports activities to improve formal and informal science, mathematics,
engineering, and technology education at all levels, as well as public science literacy projects that engage
people of all ages in life-long learning.




                                                   II-38 

                                      Required Supplementary Information 

                                             September 30, 2008 and 2007 





Required Supplementary Information 

              Deferred Maintenance 

For the Years Ended September 30, 2008 and 2007 





                     II-39 

                                                                      Required Supplementary Information
                                                                             September 30, 2008 and 2007


                                        Deferred Maintenance 

                                    (Dollar Amounts in Thousands) 


NSF performs condition assessment surveys in accordance with FASAB Standards No. 6 and No. 14 for
capitalized property, plant and equipment to determine if any maintenance is needed to keep an asset in an
acceptable condition or restore an asset to a specific level of performance. NSF considers deferred
maintenance to be any maintenance that is not performed on schedule, unless it is determined from the
condition of the asset that scheduled maintenance does not have to be performed. Deferred maintenance
also includes any other type of maintenance that, if not performed, would render the PP&E non-
operational. Circumstances such as non-availability of parts or funding are considered reasons for
deferring maintenance.

NSF considered whether any scheduled maintenance necessary to keep fixed assets of the agency in an
acceptable condition was deferred at the end of the period for fiscal years 2008 and 2007. Assets deemed
to be in excellent, good, or fair condition are considered to be in acceptable condition. Assets in poor
condition are in unacceptable condition and the deferred maintenance required to get them to an
acceptable condition are reported. NSF determines the condition of an asset in accordance with standards
comparable to those used in the private industry. Due to the environment and remote location of
Antarctica, all deferred maintenance on assets in poor condition is considered critical in order to maintain
operational status.

At September 30, 2008, NSF determined that scheduled maintenance on 14 items of Antarctic capital
equipment in poor condition was not completed and was deferred or delayed for a future period. The
largest dollar amount of deferred maintenance for any single item in poor condition approximated $24.
The items include light and heavy mobile and power distribution equipment. All items are considered
critical to NSF operations and are estimated to require $98 in maintenance.

At September 30, 2007, NSF determined that scheduled maintenance on 17 items of Antarctic capital
equipment in poor condition were not completed and were deferred or delayed for a future period. The
largest dollar amount of deferred maintenance for any single item in poor condition approximated $34.
The items include light and heavy mobile equipment, all of which is considered critical to NSF operations
and estimated to require $106 in maintenance.




                                                   II-40 

                                                                Required Supplementary Information
                                                                       September 30, 2008 and 2007




                         Required Supplementary Information
                          Budgetary Resources by Major Budget Accounts


In the following table, NSF budgetary information for the fiscal years ended September 30, 2008 and
2007, as presented in the Statement of Budgetary Resources, is disaggregated for each of NSF’s major
budget accounts.




                                               II-41 

                                                                                                                                       Required Supplementary Information
                                                                                                                                              September 30, 2008 and 2007

                                                               Combining Statement of Budgetary Resources (page 1 of 2)

                                                                                          2008

                                                                                  (Amounts in Thousands)


                                                                Research and                                Major Research    OIG, S&E, and    Special and
                                                                  Related               Education            Equipment            NSB           Donated          Total
Budgetary Resources
   Unobligated Balance - Brought Forward, October 1        $            70,495                18,937                27,600            6,897          94,748 $      218,677
   Recoveries of Prior Year Obligations                                 37,741                13,375                  214             3,571           4,267         59,168
   Budget Authority
      Appropriation                                                  4,843,974               765,600               220,740          297,186         166,434      6,293,934
      Spending Authority from Offsetting Collections
           Earned
               Collected                                               107,856                 8,102                     -            5,274                  2     121,234
               Change in Receivable from Federal Sources               (12,568)                  448                     -             (514)                 -     (12,634)
           Change in Unfilled Customer Orders
               Advance Received                                         20,017                 5,176                     -               50               -         25,243
               Without Advance from Federal Sources                    (27,024)               (4,528)                    -               32               -        (31,520)
   Subtotal - Budget Authority                                       4,932,255               774,798               220,740          302,028         166,436      6,396,257
   Nonexpenditure Transfers, Net -
      Anticipated and Actual                                            (2,240)                     -                    -                -                  -      (2,240)
   Permanantly Not Available                                           (36,665)              (11,578)              (15,275)          (2,847)                 -     (66,365)
Total Budgetary Resources                                  $         5,001,586               795,532               233,279          309,649         265,451 $    6,605,497
Status of Budgetary Resources
   Obligations Incurred
       Direct                                              $         4,856,135               767,446               166,846          298,600         170,595 $    6,259,622
       Reimbursable                                                     88,367                 9,231                     -            4,707               -        102,305
   Total Obligations Incurred                                        4,944,502               776,677               166,846          303,307         170,595      6,361,927
   Unobligated Balance - Apportioned                                       133                      6               66,398              398          90,991        157,926
   Unobligated Balance - Not Available                                  56,951                18,849                   35             5,944           3,865         85,644
Total Status Of Budgetary Resources                        $         5,001,586               795,532               233,279          309,649         265,451 $    6,605,497




                                                                                          II-42

                                                                                                                               Required Supplementary Information
                                                                                                                                      September 30, 2008 and 2007

                                                                Combining Statement of Budgetary Resources (page 2 of 2)
                                                                                           2008
                                                                                   (Amounts in Thousands)
Change in Obligated Balances
   Obligated Balance, Net
       Unpaid Obligations - Brought forward,
           October 1                                                  6,204,685             1,398,516           222,241     56,757         298,196       8,180,395
           Less: Uncollected Customer Payments from
               Federal Sources Brought Forward, October 1               (62,564)               (9,346)                -       (752)              -         (72,662)
   Total Unpaid Obligated Balance, Net                                6,142,121             1,389,170           222,241     56,005         298,196       8,107,733
   Obligations Incurred                                               4,944,505               776,677           166,845    303,305         170,595       6,361,927
   Less: Gross Outlays                                               (4,553,367)             (839,378)         (212,169)   (280,769)      (109,451)     (5,995,134)
   Less: Recoveries of Prior Year Unpaid
       Obligations, Actual                                              (37,741)              (13,375)             (214)     (3,571)        (4,267)        (59,168)
   Change in Uncollected Customer Payments
      from Federal Sources                                               39,592                 4,080                 -        482               -         44,154
   Subtotal                                                 $         6,535,110             1,317,174           176,703     75,452         355,073 $     8,459,512
   Obligated Balance, Net - End of Period
       Unpaid Obligations                                             6,558,083             1,322,440           176,703     75,722         355,073       8,488,021
           Less: Uncollected Customer
               Payments from Federal Sources                            (22,973)               (5,266)                -       (270)              -         (28,509)
   Total Unpaid Obligated Balance, Net - End of Period      $         6,535,110             1,317,174           176,703     75,452         355,073 $     8,459,512
Net Outlays
   Gross Outlays                                                      4,553,367               839,378           212,169    280,769         109,451       5,995,134
       Less: Offsetting Collections                                    (127,873)              (13,278)                -     (5,323)             (2)       (146,476)
       Less: Distributed Offsetting Receipts                                  -                     -                 -          -          (1,038)         (1,038)
Net Outlays                                                 $         4,425,494               826,100           212,169    275,446         108,411 $     5,847,620




                                                                                           II-43

                                                                                                                                      Required Supplementary Information
                                                                                                                                             September 30, 2008 and 2007

                                                               Combining Statement of Budgetary Resources (page 1 of 2)

                                                                                          2007

                                                                                  (Amounts in Thousands)



                                                                Research and                                Major Research   OIG, S&E, and    Special and
                                                                  Related               Education            Equipment           NSB           Donated          Total
Budgetary Resources
   Unobligated Balance - Brought Forward, October 1        $            49,770                27,293                 2,777           7,417         116,287 $      203,544
   Recoveries of Prior Year Obligations                                 28,137                 8,972                  152            3,439           3,774         44,474
   Budget Authority
      Appropriation                                                  4,665,950               796,693               190,881         263,641         148,640      6,065,805
      Spending Authority from Offsetting Collections:
           Earned
               Collected                                                78,821                 7,814                     -           4,206                  3      90,844
               Change in Receivable from Federal Sources               (13,583)                  160                     -             451                  -     (12,972)
           Change in Unfilled Customer Orders
               Advance Received                                         67,123                 3,265                     -              37               -         70,425
               Without Advance from Federal Sources                    (38,709)               (2,634)                    -              47               -        (41,296)
   Subtotal - Budget Authority                                       4,759,602               805,298               190,881         268,382         148,643      6,172,806
   Nonexpenditure Transfers, Net -
      Anticipated and Actual                                             5,460                       -                   -             250                  -       5,710
   Permanantly Not Available                                           (20,867)              (16,043)                    -          (1,756)                 -     (38,666)
Total Budgetary Resources                                  $         4,822,102               825,520               193,810         277,732         268,704 $    6,387,868
Status of Budgetary Resources
   Obligations Incurred
       Direct                                              $         4,658,673               798,151               166,210         266,157         173,956 $    6,063,147
       Reimbursable                                                     92,934                 8,432                   -             4,678             -          106,044
   Total Obligations Incurred                                        4,751,607               806,583               166,210         270,835         173,956      6,169,191
   Unobligated Balance - Apportioned                                    22,194                      99              27,573           1,029          90,814        141,709
   Unobligated Balance - Not Available                                  48,301                18,838                   27            5,868           3,934         76,968
Total Status of Budgetary Resources                        $         4,822,102               825,520               193,810         277,732         268,704 $    6,387,868




                                                                                          II-44

                                                                                                                               Required Supplementary Information
                                                                                                                                      September 30, 2008 and 2007

                                                                Combining Statement of Budgetary Resources (page 2 of 2)
                                                                                           2007
                                                                                   (Amounts in Thousands)
Change in Obligated Balances
   Obligated Balance, Net
       Unpaid Obligations - Brought forward,
           October 1                                                  5,768,192             1,469,459           264,130     56,422         189,138       7,747,341
           Less: Uncollected Customer Payments from
               Federal Sources Brought Forward, October 1              (114,854)              (11,820)                -       (256)              -        (126,930)
   Total Unpaid Obligated Balance, Net                                5,653,338             1,457,639           264,130     56,166         189,138       7,620,411
   Obligations Incurred                                               4,751,607               806,583           166,210    270,835         173,956       6,169,191
   Less: Gross Outlays                                               (4,286,976)             (868,554)         (207,947)   (267,061)       (61,124)     (5,691,662)
   Less: Recoveries of Prior Year Unpaid
       Obligations, Actual                                              (28,137)               (8,972)             (152)     (3,439)        (3,774)        (44,474)
   Change in Uncollected Customer Payments
      from Federal Sources                                               52,289                 2,474                 -        (496)             -         54,267
   Subtotal                                                 $         6,142,121             1,389,170           222,241     56,005         298,196 $     8,107,733
   Obligated Balance, Net - End of Period
       Unpaid Obligations                                             6,204,685             1,398,516           222,241     56,757         298,196       8,180,395
           Less: Uncollected Customer
               Payments from Federal Sources                            (62,564)               (9,346)                -       (752)              -         (72,662)
   Total Unpaid Obligated Balance, Net - End of Period      $         6,142,121             1,389,170           222,241     56,005         298,196 $     8,107,733
Net Outlays
   Gross Outlays                                                      4,286,976               868,554           207,947    267,061          61,124       5,691,662
       Less: Offsetting Collections                                    (145,943)              (11,079)                -     (4,244)             (3)       (161,269)
       Less: Distributed Offsetting Receipts                                  -                     -                 -          -          (1,535)         (1,535)
Net Outlays                                                 $         4,141,033               857,475           207,947    262,817          59,586 $     5,528,858




                                                                                           II-45

                                                                   Other Financial Reporting Information



                       OTHER FINANCIAL REPORTING INFORMATION

Debt Collection Improvement Act of 1996
Net Accounts Receivable totaled $12,319 thousand at September 30, 2008. Of that amount, $11,928
thousand is due from other federal agencies. The remaining $391 thousand is due from the public. NSF
fully participates in the Department of the Treasury Cross-Servicing Program. In accordance with the
Debt Collection Improvement Act, this program allows NSF to refer debts that are delinquent more than
180 days to the Department of the Treasury for appropriate action to collect those accounts. In FY 2004,
OMB issued M-04-10, Memorandum on Debt Collection Improvement Act Requirements which
reminded agencies of their responsibility to comply with the policies for writing-off and closing-out debt.
Based on this memo, NSF has now incorporated the policy of writing-off delinquent debt more than two
years old. Additionally, NSF seeks Department of Justice concurrence for action on items over $100,000.


Cash Management Improvement Act (CMIA)
In FY 2008, NSF had no awards covered under CMIA Treasury-State Agreements. NSF's FastLane
system with grantee draws of cash make the timeliness of payments issue under the Act essentially not
applicable to the agency. No interest payments were made in FY 2008.




                                                   II-46 

                            CHAPTER III: APPENDIX


                                          Appendix 1
            SUMMARY OF NSF FY 2008 FINANCIAL STATEMENT AUDIT 

                            AND MANAGEMENT ASSURANCES


                                          Table 1.
                            Summary of Financial Statement Audit
      Audit Opinion                                     Unqualified
      Restatement                                          No

      Material Weakness           Beginning      New    Resolved Consolidated     Ending
                                   Balance                                        Balance

      Total Material Weaknesses       0            0       0              0           0



                                        Table 2.
                            Summary of Management Assurances
                Effectiveness of Internal Control over Financial Reporting (FMFIA § 2)
Statement of Assurance                                              Unqualified
                                              Beginning     New Resolved Consolidated       Ending
                                              Balance                                       Balance
Total Material Weaknesses                           0         0        0            0         0


                  Effectiveness of Internal Control over Operations (FMFIA § 2)
Statement of Assurance                                          Unqualified
                                           Beginning     New    Resolved Consolidated       Ending
                                           Balance                                          Balance
Total Material Weaknesses                       0          0          0           0           0


           Conformance with Financial management system requirements (FMFIA § 4)
                                         Systems conform to financial management system
         Statement of Assurance          requirements
                                         Beginning    New Resolved Consolidated Ending
                                         Balance                                    Balance
Total Non-Conformances                            0        0          0           0           0


             Compliance with Federal Financial Management Improvement Act (FFMIA)
                                                            Agency             Auditor
Overall Substantial Compliance                               Yes                Yes
1. System Requirements                                 Yes
2. Accounting Standards                                Yes
3. USSGL at Transaction level                          Yes




                                              III-1 

                                       Appendix 2 – Improper Payments Information Act (IPIA) Reporting



              IMPROPER PAYMENTS INFORMATION ACT (IPIA) REPORTING 


The Improper Payments Information Act (IPIA) of 2002 and OMB Circular A-123, Appendix C guidance
require agencies to review all programs and activities, identify those that are susceptible to significant
erroneous payments, and determine an annual estimated amount of erroneous payments made in those
programs.

In 2005, in consultation with OMB, NSF revamped its IPIA approach and successfully executed it. NSF
contracted for an annual statistical review of Federal Cash Transaction Report (FCTR) transactions
received from grant recipients under the purview of the agency’s IPIA program. NSF staff worked closely
with the contractors to create a milestone chart, develop a sampling plan, and ensure ongoing grantee
communication throughout the review.

NSF showed statistically low improper payment rates for our research and education awards. Consistent
with OMB's guidance on improper payments, NSF requested, and OMB granted, relief from annual
improper payments reporting because NSF improper payments were below the reporting threshold for
two consecutive years. NSF will need to conduct a risk assessment or may be required to re-initiate
measurement activities if there are any substantial changes to the program (e.g., legislation, funding, etc.)
that may impact payment accuracy. NSF’s next IPIA reporting is due in FY 2009.

In addition, NSF has established a robust, comprehensive grant pre-award and post-award monitoring
program that builds risk reduction into its operational design. As part of this program, NSF expanded its
FCTR transaction testing to cover low, medium and all high-risk awards. The current FCTR transaction
testing is more comprehensive than the one used in NSF’s 2005 IPIA initiative.




                                                    III-2 

Appendix 3a – Inspector General’s Memorandum on FY 2009 Management Challenges




                            III-3 

                 Appendix 3a – Inspector General’s Memorandum on FY 2009 Management Challenges


Award and Contract Administration

Post-award administration policies. An effective post-award administration program for NSF
grants should provide oversight for both financial and programmatic issues to ensure that
awardees: 1) comply with terms, conditions, and regulations; 2) achieve expected progress
toward accomplishing project goals; and 3) file accurate financial reports as required. Over the
past six years, NSF has improved its monitoring of financial performance by implementing a
risk-based system that directs more of the agency’s attention to high-risk awardees. In FY 2008,
NSF reports that it assessed the performance of 29 percent of grantees managing 93 percent of
NSF funds. The challenge for the agency continues to be in improving its monitoring of
programmatic performance. Since the primary responsibility of NSF’s program officers is
selecting new awards, active awards frequently do not receive adequate attention. The program
officers need more time, guidance, and training to carry out this important job in order to detect
problems with an award in time to intervene.

OIG has highlighted problems in administering cost sharing as a major management challenge
for NSF for the past 10 years. The agency’s decision in 2004 to eliminate non-statutory cost
sharing requirements effectively curtailed new cost sharing commitments but failed to address
the issue of how to improve the poor documentation by grantees of cost sharing already in place.
OIG estimates that despite the elimination of most new cost sharing, $126 million in cost shared
commitments remains active. This year the National Science Board, which was asked by
Congress to review the impact of the agency’s elimination of most cost sharing, recommended
that it be reinstated for specific programs. At the same time, the NSB noted the confusion
among grantee institutions that surrounds cost sharing policies and their implementation, and
emphasized the need for the agency to clearly communicate the requirements of tracking and
reporting cost sharing to those institutions that undertake the commitment. The challenge for
NSF is to put an effective outreach program in place that will assure that awardees understand
and comply with the legal and auditing requirements that go along with cost sharing.

Contract Administration. The administration and monitoring of contracts has been a
management challenge for NSF in part because the agency has not had a comprehensive, risk-
based system to facilitate its oversight of contracts and ensure that the requirements of each were
being met. A timely and effective post-award monitoring program is necessary to assure the
accuracy and integrity of the contractor’s financial reports, and that it is otherwise performing as
agreed. Since contract monitoring was first cited as a deficiency by the agency’s financial
statement auditors in FY 2004, the agency has improved its contracting policies and procedures
each year. During FY 2008, the agency completed an update of its contracting manual, which
strengthened its guidance regarding post-award monitoring, risk-assessment, and risk-mitigation
procedures. Over the next year NSF will undertake another significant challenge as its $1.3
billion contract to perform logistics, support, operations, and maintenance of NSF activities in
Antarctica expires March 31, 2010. NSF is aiming to make an award by October 1, 2009. The
challenge for NSF during the procurement will be to ensure that all offerors receive the same
information and opportunities, and that NSF conducts a comprehensive analysis of the
information contained in their proposals to arrive at the best contract for the USAP and the
government.




                                                III-4 

                  Appendix 3a – Inspector General’s Memorandum on FY 2009 Management Challenges


Management of large infrastructure projects. NSF's investment in large infrastructure projects
and instruments such as telescopes and earthquake simulators presents the agency with a number
of administrative and financial challenges that have sometimes not received the same attention as
the technical issues associated with building these large-scale scientific tools. Past OIG audits
suggest that the agency’s oversight of infrastructure projects is in some cases more engaged in
dealing with technical issues, where NSF’s scientific expertise can be applied, rather than
financial and project management matters. The audits provide details about the difficulty of
managing the design, construction, and financing of these cutting edge projects and completing
the facilities on time and within budget.

During the past year, the agency has continued to make progress in addressing some of our
longstanding concerns. In particular, NSF continues to train agency staff on project management
and other issues related to large facilities, and has slightly increased staff assigned to the Large
Facilities Office (LFO) from 4 to 5. However, some of the issues we have raised in the past
persist. For example, NSF has still not fully completed the in-depth guidance necessary to carry
out the broader policies described in its facilities manual. Meanwhile, annual operating costs for
large facilities now exceed $1 billion and represent a significant portion of NSF’s entire budget,
as the number of active facilities in all phases of development continues to grow. While NSF has
increased the personnel assigned to LFO, we remain concerned that it has not been assigned
adequate authority or staff to handle the full responsibility for oversight of the entire life-cycle of
these facilities. Therefore, the challenge for NSF is to continue to improve its management of
and knowledge about the entire facility life cycle in order to assure their successful operation.
To assist NSF in addressing this challenge, OIG is undertaking a series of reviews that focus on
the cooperative agreements by which the agency provides for the management and operation of
its large facilities.

Audit resolution. Audit resolution, closure and follow-up together comprise a key element of an
agency’s internal control structure and help to identify and prevent waste, fraud and abuse. For
all OIG audits and those of NSF awardees performed under OMB Circular A-133, NSF
implements the requirements of revised OMB Circular A-50 on Audit Follow-up. The OIG
works with NSF staff to resolve internal control, compliance, and questioned cost findings
contained in these audits and to ensure that the auditees implement corrective action plans to
address the audit findings. Since 57 percent of NSF audits focus on contract or grant funds, there
are frequently three parties (agency, auditors, and awardees) rather than two participating in
audit resolution, making the process more complicated and challenging. Therefore, OIG
initiated a review this year to determine whether NSF has adequate policies and procedures to
ensure that audit findings and recommendations are fully, effectively, and appropriately resolved.
The report will be issued in 2009.

International awards. As funding for scientific research around the world increases and
commerce becomes more global, collaborations between countries and their scientists to conduct
research are also on the rise. It is estimated that NSF spends between $300 and $400 million
annually on research awards that involve participants from overseas. In addition to managing its
own international funding, because of its grant administration experience NSF is increasingly
being sought after by agencies and non-profits to manage their international awards for a fee.
This increase in its international portfolio amplifies the need to ensure the financial and


                                                 III-5 

                    Appendix 3a – Inspector General’s Memorandum on FY 2009 Management Challenges


programmatic accountability of these projects in areas such as use of research funds, integrity in
research, and project performance. The National Science Board noted in a recent report:
“Accountability must be an integral part of planning successful collaborations to assure
supporters that research integrity is a priority and that funds are used appropriately”.1

Past OIG audits of NSF’s international awards have found that international awardees are largely
unfamiliar with the terms and conditions that are applied by U.S. funding organizations. In those
situations where there is more than one funding organization with conflicting administrative
priorities, it is unclear to awardees which to follow. Similarly, standards for the conduct of
research that define plagiarism and data falsification and their penalties, often differ from
country to country depending on the scientific field. NSF must address these financial and
programmatic challenges by working with other international science organizations to harmonize
their policies and create internationally recognized standards and practices that will protect the
integrity of the research enterprise along with the funds that support them.

Ethical conduct of research . In increasing numbers, researchers and students from all over the
world who are trained to different standards and expectations of responsible and ethical conduct
of research are finding themselves in close collaborations. At the same time studies show that
the current training programs in ethical research are ineffective. Advances in computer
technology coupled with the increasing amount of information and data stored on the internet,
have increased the opportunities for unethical researchers to commit research misconduct or
engage in questionable research practices. OIG has long urged NSF to do more to foster integrity
among researchers. Last year, the America COMPETES Act of 2007 (The Act) presented the
agency with a new mandate. Its states: “The Director shall require that each institution that
applies for financial assistance from the Foundation for science and engineering research or
education describe in its grant proposal a plan to provide appropriate training and oversight in
the responsible and ethical conduct of research to undergraduate students, graduate students, and
postdoctoral researchers participating in the proposed research project.”

Since the passage of The Act, NSF has taken some initial steps toward compliance, such as
conducting internal assessments and seeking advice from academe on developing such guidance,
but to date has only responded to the requirements regarding postdoctoral researchers. In light
of this growing challenge to the integrity of NSF’s funded programs NSF needs to immediately
implement a more comprehensive, agency-wide program to instill ethics and integrity at all
levels of the scientific, engineering and education enterprise it supports.
.
Human Capital

Workforce planning. As a management challenge for NSF, workforce planning refers primarily
to three issues: planning for future staffing, management succession, and the use of visiting
scientists or “rotators”. Management and staff have attempted for most of the past decade to
keep pace with an increasing workload, driven by a rising number of proposals from researchers
seeking grant funds. Despite this increase in workload, few additional staff have been added to
the agency over the past 10 years. Past staffing imbalances at NSF have prompted questions
1
 National Science Board, International Science and Engineering Partnership: A Priority for U.S. Foreign Policy
and our Nation’s Innovation Enterprise.


                                                      III-6 

                 Appendix 3a – Inspector General’s Memorandum on FY 2009 Management Challenges


from Congress and others about how it conducts its planning and has driven agency efforts to
develop a more formalized process over the past three years.

As part of its Human Capital Management Plan, the agency piloted a workforce analysis tool to
assist it in determining the appropriate number of FTEs needed by each individual directorate.
While the analytical tool gives NSF an objective basis for projecting its future staffing needs, the
methodology is primarily based on the relationship between historical staffing levels and various
measures of workload. To date, NSF has not conducted a comprehensive skills analysis to
identify gaps between the abilities of the current and projected workforce. A skills analysis is
recommended by the Office of Personnel Management to promote informed, forward-looking
workforce planning. For this reason, NSF received a “red light” for its management of human
capital on the President’s Management Agenda Scorecard from OMB this past year. Though
NSF’s new Human Capital Strategic Plan issued in March 2008 promised “particular focus on
addressing identified skill gaps”, the agency now believes that a formal skill gaps analysis would
be inappropriate for NSF.

Meanwhile the number of NSF staff eligible for retirement is even greater than that of the rest of
the federal government. The agency estimates that 34 percent of its workforce is over 55, as
opposed to 24 percent for the government overall, and the average age of an NSF employee is
50. NSF has been fortunate that the retirement rate for the past four years has been lower than
the rest of government at 13.5 percent. In preparation for the eventual rise in retirements, NSF
has articulated three core strategies to guide its succession planning including an effective
transition process, comprehensive leadership development, and sound knowledge management
practices.

The temporary employment of “rotators” or visiting scientists, as a means of revitalizing the
agency’s knowledge about specific cutting edge areas of research, also poses an administrative
and management challenge for NSF. In FY 2007, there were about 219 rotators working at NSF
comprising approximately 15 percent of NSF’s workforce and an even greater percentage of its
program officers. NSF estimates that 15-20 percent of its executives and 14 percent of its
science and engineering staff are subject to annual turnover. The continual replenishing of this
critical but temporary workforce presents a challenge for the agency as they require more
administrative support in the form of hiring, processing, training, and supervision, than a
permanent employee. The presence of so many rotators also complicate efforts by the agency to
conduct effective succession planning as there are certain positions for which their level of
institutional knowledge or management skills are not appropriate. NSF recognizes the problem
and has focused more attention on the unique issues surrounding rotators in developing their
Human Capital Strategic Plan.

Administrative infrastructure. The ability of NSF directorates to hire new employees and to
travel continues to be hindered by a lack of resources as well as poorly designed systems, As
reflected in the most recent surveys of NSF staff, the agency’s understaffed human resource
office continues to extend the time required to bring on board needed new employees. Basic
human capital services such as staffing and recruitment, workforce planning, and organizational
development received among the lowest ratings registered in NSF’s 2007 customer satisfaction
survey.


                                                III-7 

                     Appendix 3a – Inspector General’s Memorandum on FY 2009 Management Challenges



In addition, the efforts of NSF program and financial staff to monitor awards through on-site
inspections are impeded due to problems associated with funding and scheduling travel. Over
the past 5 years, NSF’s travel funds have increased at an annual rate of only 4.7%, this during a
period when the agency has strengthened its administrative post-award oversight in part by
conducting more site visits. Our concern is that that the funding of more financial site visits will
be performed at the expense of the program officers who must also be able to observe awardee
operations first-hand and meet with grantees. The difficulty of using the Fed Traveler system to
schedule and account for travel is reflected in its poor rating in the survey of agency staff. NSF
should strengthen its commitment to effective post-award administration by increasing the
availability of funds for travel, and streamlining the process for accomplishing it.

Budget, Cost and Performance Integration

Performance reporting. The Government Performance and Results Act (GPRA) requires
agencies to identify the outcomes that they were created to accomplish, and to establish and track
their progress against performance measures that best reflect progress toward accomplishing
those goals. However, as the Committee on Science, Engineering, and Public Policy observed:
“evaluating federal research programs in response to GPRA is challenging because we do not
know how to measure knowledge while it is being generated, and its practical use might not
occur until many years after the research occurs…”.2 For this reason NSF has struggled over the
years to define the outcomes that follow from its mission, and to set up appropriate performance
measures.

In its 2006-2011 strategic plan, NSF revised its 4 strategic outcome goals, in part to clarify them
for reporting purposes. However, the outcomes described are very general and tend to
complicate independent efforts to conduct a meaningful evaluation of the agency’s performance.
George Mason University’s Mercatus Center ranked the quality of NSF’s performance reporting
as 18th out of 24 federal agencies reviewed in its most recent Annual Performance Scorecard.3
In addition, NSF’s Advisory Committee on GPRA counseled NSF to consider ways to
demonstrate the long-term impacts of NSF support to make their reporting more comprehensive.
NSF would be wise to follow the Advisory Committee’s recommendation.

Cost information. The demand for increased disclosure and transparency by government
agencies about their finances continues to grow each year. A recent survey commissioned by the
Association of Government Accountants indicates that 1) federal financial reporting is important
to taxpayers, 2) it affects their level of trust in government, and 3) government is failing to meet
expectations regarding its obligation to explain how it spends its money. In response to this
problem, Congress enacted the Federal Funding Accountability and Transparency Act of 2006
(The Act), requiring federal agencies to publicize for the first time detailed information about all
grants and contracts over $25,000 in a searchable, on-line format. Since grants and contracts
comprise approximately 95 percent of NSF’s appropriation, The Act has effectively opened the
agency’s accounting books to the public for the bulk of its expenditures, a positive development.


2
    Implementing the Government Performance and Results Act for Research, p.1
3
    9th Annual Performance Report Scorecard, p. 67


                                                       III-8 

                   Appendix 3a – Inspector General’s Memorandum on FY 2009 Management Challenges


However, while information about NSF’s awards is now readily available, details about its own
operating costs are much harder to find. In its annual financial report and performance
highlights, NSF’s operating costs are aggregated and presented according to its three strategic
goals which are too general to enable any meaningful evaluation of how well the agency is
managing its own resources. An annual report that omitted information about how much a
business spends on salaries, office space, or other basic expenses would be of limited use to
shareholders or regulators. Detailed cost information is not just necessary to determine an
organization’s cost-effectiveness and efficiency, but is also crucial to fostering accountability.
For that reason, NSF should strive to improve and increase its disclosure of operating costs.

United States Antarctic Program (USAP)

USAP long-term planning. One of NSF’s most important responsibilities is the operation of the
USAP which is overseen by the Office of Polar Planning (OPP). Through a 10-year $1.3 billion
contract, OPP provides all necessary services and support to three U.S. research stations:
McMurdo, South Pole, and Palmer. As part of its mandate, NSF is also responsible for the
research infrastructure in Antarctica’s harsh polar environment. The agency spent approximately
$233 million for USAP infrastructure and logistics in FY 2007. The periodic replenishment of
the infrastructure is a key element of USAP’s long-term planning efforts, as well as a
management challenge, because of its impact on the health and safety of program participants as
well as the performance of scientific research.

In a note to its FY 2007 financial statements, NSF reports that scheduled maintenance on 17
items of Antarctic capital equipment in poor condition was deferred, explaining that deferred
maintenance on assets in poor condition is considered “critical to maintaining operational status”
due to the environment and remote location. OPP commonly defers maintenance when the
Program lacks either parts or money. In FY 2008 and 2009, USAP budgets have also been
affected by rising fuel costs and a weak dollar, further impeding NSF’s ability to make long-
planned investments in renewing and upgrading its infrastructure. Several years ago, OIG
auditors recommended that NSF develop a life-cycle oriented capital asset management program
along with a consistent budgeting mechanism to ensure that USAP’s infrastructure needs are
adequately addressed and do not pose a risk to the safety and health of USAP participants. NSF
disagreed with this proposal.4 Since thorough planning is particularly critical when managing
within limited budgets, NSF should reconsider this suggestion.

As noted in prior Federal Information Security Management Act (FISMA) reports, OPP also
needs to improve its disaster recovery planning to be better prepared in the event a disruption in
IT services affects its Antarctic operations. In FY 2008, OPP management initiated strategic
planning to mitigate the potential risk of interruption to USAP program operations. OPP plans to
continue an initiative to create alternate network connectivity for Antarctica operations and
estimates that implementation should be completed by the end of FY 2009, contingent on
funding. OPP is also in the process of replacing its operating platform with a more current and
robust system by the end of FY 2010.


4
 Audit of Occupational and Health & Safety and Medical Programs in the United States Antarctic Program, OIG
03-2-003, March 2003


                                                     III-9 

                 Appendix 3a – Inspector General’s Memorandum on FY 2009 Management Challenges


Merit Review

Broadening participation in the merit review process. Increasing the numbers of women and
minorities who receive NSF support for their research and participate as reviewers in the merit
review process has been a longstanding but elusive goal of the agency. The primary challenge
for NSF is to assure that underrepresented groups have the same opportunities, access to funds
for research, and information about the process as those that have been successful in receiving
funding. In FY 2007 NSF continued to make incremental progress toward achieving many of
their goals. In the case of reviewers, a necessary first step toward increasing diversity is to
persuade individual reviewers to voluntarily submit demographic information. The number of
reviewers who complied with this request increased by 3 percentage points in 2007 to 28 percent.
Meanwhile 37 percent of those who responded indicated that they were members of an
underrepresented group, a 1 percent increase. As the funding rate for all PIs grew from 25 to 26
percent, the rate at which women and minority PIs are funded also increased by 1 percent to 27
and 25 percent respectively. However In FY 2007, NSF failed to achieve 4 out of 8 performance
goals for Broadening Participation included in its Program Assessment Rating Tool (PART)
review by OMB.

In its FY 2006 strategic plan, NSF had promised to expand efforts to broaden participation.
More detail about those efforts is contained in Broadening Participation at the National Science
Foundation: A Framework for Action, a draft plan issued in August 2008. It lists seven
recommended action items for NSF to undertake to integrate the broadening participation
initiative into NSF’s core processes. One of the action items promises that it will increase the
diversity of the reviewer population by 1) initiating the development of a searchable reviewer
system with accurate demographic data, 2) encouraging reviewers to provide demographic data,
3) cultivating additional reviewer sources, and 4) encouraging NSF staff to use a more diverse
reviewer pool. Just as important, another action item provides a commitment to develop a
detailed implementation schedule for accomplishing all of its recommended actions. The
proposed development of a timetable accompanied by periodic evaluations of the progress being
made by the agency toward meeting this challenge would increase both the agency’s
accountability and its chances of success.




                                              III-10 

Appendix 3b -
 Director's Response to IG's Memorandum on FY 2009 Management Challenges




                                 NATIONAL SCIENCE FOUNDA nON
                                      4201 'WILSON BOULEVARD
                                     ARLINGTON, VIRGINIA 22230


                                             NOV 14 2008




       MEMORANDUM
       To:        Dr. Christine C. Boesz
                  Inspector General, NSF

       From:      Dr. Arden L. Bement, Jr.
                  Director, NSF

       Subject:   Response to the Inspector General's Memorandum
                  Management Challenges for NSF in FY 2009

       Thank you for your memorandum of October 16, 2008 regarding potential management
       challenges the National Science Foundation (NSF) faces during the remainder of Fiscal
       Year (FY) 2009, and for noting that some of these management challenges are
       fundamental issues that the Foundation is dealing with on a continuing basis. As in the
       past, your memorandum has been shared and discussed with NSF senior management
       in the Senior Management Round Table (SMaRT).

       The attached summary highlights the steps we have taken, and the accomplishments we
       have achieved on the management challenges in FY 2008. The Foundation remains
       committed to serving our community effectively and responsibly, and to continually
       improving NSF's stewardship across the agency while supporting the NSF mission and
       maintaining its high standing in the Feder~l government.



                                             \1-..--t~..     -k~~
                                             Arden L. Bement, Jr.
                                                  Director

       Attachment




                                              III-ll
                                                       Appendix 3b – Director’s Response to IG’s Memorandum on Management Challenges




                                          NATIONAL SCIENCE FOUNDATION (NSF) 

                                              Progress During Fiscal Year (FY) 2008

                                          On the OIG’s FY 2008 Management Challenges 



OIG’s FY 2008 Management          NSF’s Significant Actions Taken in FY 2008                     NSF’s Anticipated Next Steps
         Challenge
Award and Contract Administration
a. Post-Award               • Assessed administrative performance of 29 percent of      • Continue to develop new administrative tools
Administration Policies        awardees managing 93 percent of NSF funds through          to strengthen post award oversight
                               advanced monitoring (30 site visits; 138 desk reviews)   • Incorporate additional business rules into NSF
                               under the Award Monitoring and Business Assistance         corporate business systems to further
                               Program (AMBAP)                                            strengthen accountability
                            • Updated policies and procedures, including NSF’s suite    • Implement policies and procedures to address
                               of grant administrative manuals, and BFA’s Standing        new programmatic requirements legislated
                               Operating Guidance that outlines AMBAP procedures          under the America COMPETES Act (ACA)
                               for ensuring grantee compliance in administering NSF     • Develop strategies and resources for training
                               funds                                                      NSF staff on federal and Agency policies,
                            • Fully implemented Portfolio Facilitation Model              regulations, and procedures
                               providing comprehensive support for NSF grant
                               administration
                            • Initiated implementation of “Division Director (DD)-
                               concur” for awards in eJacket as the last step in
                               establishing a paperless awards process
                            • Established an Office of Budget, Finance, and Award
                               Management (BFA) Policy Council to standardize
                               policies and policy development, clearance procedures,
                               and issuance processes
b. Contract Monitoring      • Expanded the contract oversight program to include        • Continue administration of the contract post-
                               comprehensive post-award monitoring policies and           award monitoring program
                               procedures and training




                                                                 III-12 

                                                         Appendix 3b – Director’s Response to IG’s Memorandum on Management Challenges




OIG’s FY 2008 Management          NSF’s Significant Actions Taken in FY 2008                       NSF’s Anticipated Next Steps
          Challenge
Award and Contract Administration - continued
c. Management of Large      • Increased the number of Large Facilities Office (LFO)       • Increase staffing in FY 2009
Infrastructure Projects        staff to strengthen NSF’s operational oversight of large   • Revise BSR Guide consistent with direction of
                               facilities                                                   the BSR Subcommittee of the Business and
                            • Issued a report, Oversight of NSF Funded Large                Operations Advisory Committee
                               Facilities Survey, Observations and Recommendations,       • Revise supplementary materials to Large
                               to OMB in response to a Performance Assessment               Facilities Manual and release for public access
                               Rating Tool (PART) goal                                    • Conduct second annual Large Facilities
                            • Conducted 14 Annual Reviews of operational facilities         Workshop on Best Practices for awardees and
                               and 4 Business Systems Reviews (BSR)                         NSF staff in Spring 2009
                            • Conducted a Large Facilities Workshop to facilitate
                               sharing of Best Practices for awardees and NSF staff
d. Audit Resolution         • Resolved 195 audits (as of July 2008), 96 percent           • Revise Standing Operating Guidance (2001-4),
                               within six-months of their receipt from the NSF OIG          Policies and Procedures for Audit Report
                                                                                            Issuance and Resolution of Audit Findings
                                                                                            Contained in Audits of NSF Awardees




                                                                  III-13 

                                                     Appendix 3b – Director’s Response to IG’s Memorandum on Management Challenges




OIG’s FY 2008 Management        NSF’s Significant Actions Taken in FY 2008                     NSF’s Anticipated Next Steps
        Challenge
Human Capital (HC)
a. Workforce Planning      • Developed plans addressing multi-year recruitment        • Finalize FY 2009-2010 staffing plans for each
                             needs and workforce planning                               Directorate
                           • Tested a new management structure for support            • Expand NSF’s new employee welcome
                             positions                                                  program
                           • Explored opportunities to reduce the amount of time      • Begin implementation of the NExT program
                             required to hire Program Officers                          after it has been approved
                           • Enhanced employee orientation                            • Work toward full implementation of key
                           • Drafted a proposal to create a New Executive               agency human capital goals outlined in the
                             Transition Program (NExT)                                  NSF Strategic Plan and the NSF Human
                           • Developed and introduced new NSF Human Capital             Capital Strategic Plan
                             Strategic Plan
                           • Continued to streamline recruiting processes and
                             reduce overall “time-to-hire” for NSF positions
b. Administrative          • Continued to actively address both short and long-term   • Explore opportunities to achieve more efficient
Infrastructure               space requirements                                         space utilization
                           • Achieved more efficient utilization of space through     • Explore opportunities to enhance space
                             various office moves                                       utilization and facilitate inter-disciplinary
                           • Improved FedTravel resulting in a more intuitive and       interaction across NSF through “cluster”
                             user-friendly travel system                                moves which result in Directorate staff being
                           • Interfaced FedTravel with the finance system,              co-located with other Directorate staff
                             enhancing internal controls




                                                              III-14 

                                                        Appendix 3b – Director’s Response to IG’s Memorandum on Management Challenges




OIG’s FY 2008 Management           NSF’s Significant Actions Taken in FY 2008                    NSF’s Anticipated Next Steps
         Challenge
Budget, Cost and Performance Integration
a. Performance Reporting     • Developed specific program categories and evaluation     • Continue to refine and improve the program
                                criteria under each strategic outcome goal for use by     categories for highlights and the evaluation
                                the Advisory Committee for GPRA Performance               criteria used by the AC/GPA
                                Assessment (AC/GPA)

   Reporting Results of        • Implemented data migration for Project Reporting       • Develop additional flexibility to report on
   Scientific Research           System enhancements                                      special award categories
                               • Finalized Agency recommendations on final project
                                 reporting requirements mandated by the ACA
b. Cost Information            • Realigned NSF’s FY 2009 Budget Request to tie          • Continue to explore mechanisms that improve
                                 internal investments in information technology more      the transparency and accessibility of cost
                                 directly to NSF’s programs                               information without placing an additional
                                                                                          recordkeeping burden on staff

OIG’s FY 2008 Management            NSF’s Significant Actions Taken in FY 2008                   NSF’s Anticipated Next Steps
          Challenge
Information Technology (IT)
Implementing Enterprise        • Completed most of NSF’s outstanding critical success   • Define NSF’s data architecture in greater detail
Architecture (EA)                attributes related to the 2006 GAO EA Report             per recommendations in the 2006 GAO EA
                               • Developed an IT Security and Privacy Architecture        report
                               • Completed verification and validation of NSF’s EA      • Continue to execute EA processes for
                                 processes and products                                   maintaining NSF’s architecture and ensuring
                               • Verified that new and ongoing IT investments for FY      compliance of IT investments
                                 2009 complied with our EA standards
                               • Recognized by OMB as having an EA that is “Best in
                                 Class (small agencies)”




                                                                  III-15 

                                                           Appendix 3b – Director’s Response to IG’s Memorandum on Management Challenges




OIG’s FY 2008 Management            NSF’s Significant Actions Taken in FY 2008                      NSF’s Anticipated Next Steps
         Challenge
United States Antarctic Program (USAP)
a. Long-Term Planning         • Tasked an external group of experts to advise on           • Continuing work on these efforts dependent
                                 logistics and infrastructure needed to sustain a high       upon FY 2009 funding
                                 priority research program
b. Property, Plant, and       • Commenced verification and validation of PP&E              • Complete assessment of cost documentation
Equipment (PP&E)                 activities                                                  for Construction in Progress and Real Property
                              • Implemented new methodology for freight cost                 assets
                                 estimation                                                • Determine how best to expand scope of
                                                                                             financial management modernization effort


OIG’s FY 2008 Management              NSF’s Significant Actions Taken in FY 2008                    NSF’s Anticipated Next Steps
          Challenge
Merit Review
Broadening Participation in     • Approved a draft plan, Broadening Participation at the   • Conduct a workshop for tribal colleges and
the Merit Review Process          National Science Foundation: A Framework for               universities in Fall 2008, providing a
                                  Action, and sent it to NSF Advisory Committees for         comprehensive overview of NSF
                                  review                                                   • Receive and respond to Advisory Committee
                                • Conducted outreach workshops for minority serving          comments on the Framework for Action plan;
                                  institutions                                               finalize the plan and develop an
                                • Developed Merit Review Web site on NSF’s homepage          implementation schedule
                                  to enhance the transparency of the grants review         • Continue to develop the Reviewer
                                  process                                                    Management Services and other associated
                                • Began development of Reviewer Management Services          Research.gov services
                                  as part of Research.gov, an NSF-led partnership of
                                  federal research grant-making agencies engaged in
                                  streamlining and standardizing business processes




                                                                     III-16 

                                        Appendix 4 – Patents and Inventions Resulting from NSF Support




             PATENTS AND INVENTIONS RESULTING FROM NSF SUPPORT

The following information about inventions is being reported in compliance with Section 3(f) of the
National Science Foundation Act of 1950, as amended [42 U.S.C. 1862(f)]. There were 1,620 NSF
invention disclosures reported to the Foundation either directly or through NIH's iEdison database during
FY 2008. Rights to these inventions were allocated in accordance with Chapter 18 of Title 35 of the
United States Code, commonly called the "Bayh-Dole Act."




                                                 III-17 

                                                                              Appendix 5 – Acronyms



                                          ACRONYMS

AC        Advisory Committee                                GAAP     Generally Accepted Accounting
ACA       America Competes Act                                       Principles
AC/GPA    Advisory Committee for GPRA                       GAO      Government Accountability Office
          Performance Assessment                            GPA      GPRA Performance Assessment
AFR       Annual Financial Report                           GPRA     Government Performance and
AMBAP     Award Monitoring and Business                              Results Act
          Assistance Program                                GSA      Government Services Administration
AOAM      Agency                                            ICASS    International Congress of Arctic
APIC      Accountability and Performance                             Social Sciences
          Integration Council                               ICWG     Ice Core Working Group
APR       Annual Performance Report                         IPIA     Improper Payments Information Act
BFA       Office of Budget, Finance, and                             of 2002
          Award Management                                  IT       Information Technology
BSR       Business Systems Review                           LFO      Large Facilities Office
CFO       Chief Financial Officer                           LIGO     Laser Interferometer Gravitational
CIO       Chief Information Officer                                  Wave Observatory
CMIA      Cash Management Improvement Act                   MOU      Memorandum of Understanding
COSEPUP   Committee on Science, Engineering,                MREFC    Major Research Equipment and
          and Public Policy                                          Facilities Construction
COV       Committee of Visitors                             MTS      Federal Measurement Tracking
CSBF      Columbia Scientific Balloon Facility                       System
CSEMS     Computer Science, Engineering and                 NASA     National Aeronautics and Space
          Mathematics Scholarship Program                            Administration
CSRS      Civil Service Retirement System                   NSB      National Science Board
DD        Division Director                                 NSF      National Science Foundation
EA        Environmental Assessment                          OIG      Office of Inspector General
EIS       Enterprise Information System                     OMB      Office of Management and Budget
FAS       Financial Accounting System                       OPM      United States Office of Personnel
FASAB     Federal Accounting Standards                               Management
          Advisory Board                                    OPP      Office of Polar Programs
FBWT      Fund Balance with Treasury                        PAR      Performance and Accountability
FCTR      Federal Cash Transaction Report                            Report
FECA      Federal Employees’ Compensation                   PARS     Proposal and Reviewer System
          Act                                               PART     Program Assessment Rating Tool
FERS      Federal Employees Retirement                      PP&E     Property, Plant and Equipment
          System                                            PMA      President’s Management Agenda
FFATA     Federal Funding Accountability and                PTR      Potentially Transformative Research
          Transparency Act
FFMIA     Federal Financial Management                      SFFAS    Statements of Federal Financial
          Improvement Act of 1996                                    Accounting Standards
FFR       Federal Financial Report                          SGL      Standard General Ledger
FMFIA     Federal Managers’ Financial                       TCEQ     Texas Commission on Environmental
          Integrity Act of 1982                                      Quality
FFRDC     Federally Funded Research and                     UNAVCO   University NAVSTAR Consortium
          Development Center                                USAF     U.S. Air Force
FISMA     Federal Information Security                      USAP     U.S. Antarctic Program
          Management Act                                    USSGL    U.S. Government Standard General
FMFIA     Federal Financial Management                               Ledger
          Improvement Act of 1996                           VA       Veterans Affairs
FMLoB     Financial Management Line of
          Business
FMSM      Financial Management Service
          Metrics
FTE       Full-time Equivalency
FY        Fiscal Year


                                                 III-18 

